<html>
<title> - NATIONAL HERITAGE AREAS</title>
<body><pre>[Senate Hearing 108-23]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 108-23

 
                        NATIONAL HERITAGE AREAS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

  TO CONDUCT OVERSIGHT ON THE DESIGNATION AND MANAGEMENT OF NATIONAL 
   HERITAGE AREAS, INCLUDING CRITERIA AND PROCEDURES FOR DESIGNATING 
HERITAGE AREAS, THE POTENTIAL IMPACT ON HERITAGE AREAS ON PRIVATE LANDS 
  AND COMMUNITIES, FEDERAL AND NON-FEDERAL COSTS OF MANAGING HERITAGE 
AREAS, AND METHODS OF MONITORING AND MEASURING THE SUCCESS OF HERITAGE 
                                 AREAS

                               __________

                             MARCH 13, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
  87-091 PDF
-------------------------------------------------------------------------

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel

                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                         Thomas Lillie, Fellow
                David Brooks, Democratic Senior Counsel

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

DeWine, Hon. Mike, U.S. Senator from Ohio........................     2
Higgins, Kathryn, Vice President for Public Policy, National 
  Trust for Historic Preservation................................    13
Hoffman, Paul, Deputy Assistant Secretary, Fish and Wildlife and 
  Parks, Department of the Interior..............................     4
Knight, Peyton, Legislative Director, American Policy Center.....    25
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     3
Sachse, C. Allen, Executive Director, Delaware and Lehigh 
  National Heritage Corridor Commission..........................    19
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                                 LETTER

Letter From Senators Reed, Kennedy, Chafee, and Kerry............     4


                        NATIONAL HERITAGE AREAS

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I think we will go ahead and begin. We are 
in a series of voting over there, so I do not suspect that we 
will have a huge number here, but that is fine.
    We are going to be talking about National Heritage Areas, 
and so I welcome you all here today, witnesses particularly. 
The purpose is to conduct an oversight on the designation and 
management of National Heritage Areas. This is not designed to 
decide whether we have them, or opposed to them, or for them. 
It is just: We have had increasing numbers of heritage areas 
come before the Senate recently, before the Congress. And we 
really have not defined what they should be. We have no 
standardized ideas of what they are. We have no particular 
notion of what the Federal role is in these things, and the 
funding, and so on.
    So I think what we are doing is saying if we are going to 
have more and more National Heritage Areas, if that is the 
direction we are going in, then I think we need to define it 
somewhat as to how we do it.
    I have had some concerns about the goals; that they be 
shared goals that we all can work on and the structure; the 
criteria for the establishment of it; what generally are going 
to be the responsibilities of the Park Service. As you all 
know, we have 388 parks or something in this country, and so 
there comes a time when you begin to say, ``All right. How do 
we define what really fits into the purpose here?''
    Certainly, there are unique places in the country where it 
is appropriate to have Federal assistance where a State or 
local organization is not able to assume all of the 
responsibility. I have to say I am a little concerned about the 
numbers, and again, because there is no real consistent policy 
with regard to our standardization of it.
    So that is really what we would like to hear your thoughts 
on: What you think about heritage areas; how you think they 
might be defined; what do you think some of the issues ought to 
be that are discussed with respect to them as they come here; 
and, you know, very frankly so that they do not just become 
some political issue that someone brings in from their State to 
get Federal funding to do something that is really a local 
deal. Now I know that is kind of hard to define sometimes.
    But at any rate, I am very pleased to have Deputy Assistant 
Secretary Paul Hoffman with us today.
    I think what we will do, Mr. Secretary, is ask you to go 
first and have a few questions, and then we will ask the other 
three to come up following that. So if you would, come forward, 
sir.
    I am particularly happy to have Mr. Hoffman since we both 
have interests in Cody, Wyoming.
    Mr. Hoffman. We certainly do, Mr. Chairman.
    Senator Thomas. Yes.
    [The prepared statements of Senators DeWine and Landrieu 
and a letter from Senators, Reed, Kennedy, Chafee, and Kerry 
follow:]
     Prepared Statement of Hon. Mike DeWine, U.S. Senator From Ohio
    Mr. Chairman, thank you for allowing me to submit testimony today 
regarding my support for National Heritage Areas. As you know, the idea 
behind heritage areas is that the sites and organizations, working 
together, can accomplish more than working separately. Because they are 
linked together by theme and geographical proximity, they can readily 
collaborate on preservation activities, promotional campaigns, and 
programming.
    The real work of the heritage area is conducted by the individual 
sites and organizations. The minimal role of the federal government is 
to help coordinate and assist the management of the groups involved in 
the heritage area. It is clear from the outcome seen at the established 
heritage areas located throughout our nation that much benefit has come 
to those communities involved. With less interference from the federal 
government, key elements of our great heritage are being preserved and 
made available for all to enjoy.
    It is for that reason that I have introduced a bill, along with my 
friend and colleague, Senator Voinovich, that would establish a 
National Aviation Heritage Area within our home state of Ohio, which is 
celebrating its bicentennial this year. The year 2003 also represents 
the 100th anniversary of manned flight. On December 17, 1903, Wilbur 
and Orville Wright, who are native Ohioans, invented controlled, 
heavier-than-air flight. This was the first step in the century-long 
progression of flight. The Wright Brothers' successful design and the 
science behind it were the forerunners to our modern airplanes and 
space vehicles.
    There is obvious historical and cultural significance to the birth 
of aviation, and one of the unique educational aspects of aviation is 
the opportunity we can give children to interact with the subject 
outside of the classroom. Our bill seeks to foster strong public and 
private investments in aviation landmarks. Some of these landmarks 
include the Wright Brother's Wright Cycle Company, located in Dayton; 
the National Aviation Hall of Fame; the Wright-Dunbar Interpretive 
Center, where students of all ages can learn about the painstaking 
measures the Wright Brothers and many of their predecessors took to 
fly; and the Huffman Prairie Flying Field, where the Brothers perfected 
the design of the world's first airplane.
    Mr. Chairman, flight has become another important square in the 
patchwork of our nation's history. We are reminded of this every time 
we look skyward and see the criss-cross of jet contrails. We are 
reminded of this every time we walk through the Rotunda of our very own 
U.S. Capitol and see the last frieze square that depicts the invention 
of flight by the Wright Brothers. And, we are reminded of this by one 
of the symbols of America, the eagle, and a flying bird that represents 
the freedom of a people.
    It is vital that we protect the sites that have played such an 
important role in aviation and our nation's heritage. Doing so, we can 
enhance the education and enrichment of our children and our 
grandchildren for many years to come.
    Thank you, again, Mr. Chairman, for allowing me to express my 
support for National Aviation Heritage Areas.
                                 ______
                                 
       Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator 
                             From Louisiana

    Thank you, Mr. Chairman. I rise today to express my strong support 
for National Heritage Areas. The idea behind heritage areas is that the 
sites and organizations, working together, can accomplish more than 
working separately. These partnerships that extend from the local to 
the national level, enable national heritage areas to conserve cultures 
and drive economic development through heritage tourism.
    National heritage areas significantly help to extend the National 
Park Service's mission beyond the borders of existing parks by 
conserving regions that are significant to our nation's history.They do 
so in a cost-effective manner that also provides a large role for local 
participation.
    National heritage areas are ``living landscapes,'' special places 
inhabited by the people who have lived and worked in a region for 
generations. In national heritage areas, local people participate in 
preserving the places and traditions important to our communities and 
to our nation's history. In this way, national heritage areas broaden 
the relevance of the National Park Service, building ever-greater 
constituencies committed to the NPS mission.
    Further, I want to make perfectly clear the fact that national 
heritage areas do not restrict private property owners' rights. 
Property owners' rights have not been stifled, indeed, they have been 
expanded. For example, property owners participate in the annual grants 
program, receiving awards to improve their property with preservation, 
research, and development projects of their own choosing.
    NPS funding for national heritage areas is the catalyst to leverage 
private support, as well as other public funding (both state and 
local). The public/private partnerships in national heritage areas help 
preserve nationally significant regions, as well as foster sustainable 
economic development focused on heritage tourism. National heritage 
areas tell the story of our nation's history through regional 
interpretation, often giving greater context to the national parks in 
that region. And no state has a heritage as rich and diverse to show to 
the world than my state of Louisiana.
    Louisiana currently has one national heritage area, the Cane River 
National Heritage Area in Natchitoches. Its success has prompted me to 
introduce legislation, along with Senator Breaux, that would create the 
Atchafalaya National Heritage Area in the southern part of my state. 
Both areas are closely associated with national park units. The 
residents of both areas share the history and culture that is 
interpreted at the national park units, providing a cultural and 
historical context for the parks. Both areas contribute to the 
development of infrastructure for heritage tourism in the regions in 
which they are situated.
    Tourism and culture define Louisiana. This state long has been 
known for Creole and Cajun peoples, their music, their food, and the 
beauty of the landscape in which they live. Visitors come from all over 
the world to experience Louisiana's unique natural and cultural 
heritage.
    Mr. Chairman, national heritage areas are a perfect fit for my 
state and I know other states can benefit from their many contributions 
as well.
                                 ______
                                 
                                      United States Senate,
                                    Washington, DC, March 13, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Dirksen Senate Office Building, 
        Washington, DC.
Hon. Daniel K. Akaka,
Ranking Member, Subcommittee on National Parks, Senate Committee on 
        Energy and Natural Resources, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Thomas and Senator Akaka: This afternoon, the 
Subcommittee on National Parks is scheduled to hold a hearing on the 
National Park Service's National Heritage Areas (NHAs). We write to you 
at this time to express our concern for changes to the NHA Program that 
may be proposed during this hearing, and ask that you consider the 
potential for negative impacts of these proposals on the future 
sustainability of the John H. Chafee Blackstone River Valley National 
Heritage Corridor. Over the years, it has been our experience that the 
success witnessed at the Blackstone has been due to the fact that the 
``framework'' has been molded by the states and the people representing 
the region. A sustainable and locally driven decision-making process is 
vital to harnessing the energy needed for a heritage area to succeed.
    In 1986, the Blackstone River Valley National Heritage Corridor was 
established to recognize the national significance of the Blackstone 
region as the birthplace of the American Industrial Revolution. At the 
time, the NPS struggled to understand how to work outside of its 
familiar park boundaries and looked at the Blackstone as a challenge 
and an experiment. The communities that make up this bi-state region 
needed leadership and a mechanism for working together. Traditionally, 
Congress would have recognized the nationally significant resources of 
the Blackstone Valley by establishing a unit of the National Park 
System. However, the Blackstone Corridor's success can be attributed to 
the fact that the federal government does not own land, and the 
authorizing language specifically protects private property rights 
within the Corridor. This model partnership is being coordinated by a 
federally-sanctioned commission charged with carrying out a publicly 
supported and long-lasting management framework for the Blackstone 
Corridor. The Commission, working with the states and local partners, 
developed a common vision for the region, and provides limited federal 
seed money and technical assistance to implement their common goals.
    Today, there are visible signs of change throughout the Blackstone 
Corridor. The water quality of a polluted river has been significantly 
improved; A greenway for bicyclists and hikers is underway; Historic 
mill buildings have been restored; and, NPS rangers and volunteers are 
educating local residents and visitors about the valley's rich history. 
The Blackstone Commission has become a national model for how federal 
government, with the leadership of the NPS, can work with state and 
local partners toward common goals of revitalized communities, historic 
and economic restoration, and an improved environment. All this has 
been accomplished with a relatively small amount of federal funding 
that has been leveraged many times over by state, local, and private 
sector dollars.
    Last April, the National Park Service testified before this 
Subcommittee on the Blackstone Corridor and stated, ``A multi-agency 
partnership with emphasis in the interpretation of a cultural landscape 
rather than federal ownership and regulation, was considered the more 
appropriate protection strategy for such a large area where people 
continue to live and work. The Blackstone Valley exemplifies a seamless 
system of local, state and federal efforts where people are working on 
a regional scale to maintain historical integrity by developing 
integrated protection and economic development strategies. As one of 
the first National Heritage Areas established, the Blackstone has 
become a model of how the National Park Service can work cooperatively 
with partners to achieve resource protection and public support.''
    The inspiration and dedication that led to the founding of this 
nation. The foresight of entrepreneurs in propelling America's early 
economy forward. The revitalization of a river and historic mill 
communities. These are the collective stories of the Blackstone 
Corridor. The Commission's continued partnership with the region's 
local stakeholders in sharing this rich cultural and historic past 
remains crucial to the future of the Blackstone Valley. As your 
Subcommittee reviews the current status of the NHA Program, we urge you 
to consider the benefits that the national heritage area designation 
provides to the local economy and sense of community pride in the 
Blackstone Valley Corridor.
    We respectfully request that this letter be included as part of the 
hearing record for the NHA hearing. Thank you for the opportunity to 
share our views.
            Sincerely,
                                   Jack Reed, United States Senator
                                   Ted Kennedy, United States Senator
                                   Lincoln Chafee, United States 
                                       Senator
                                   John F. Kerry, United States Senator

STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT SECRETARY, FISH AND 
         WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Thank you very much for the opportunity to 
testify today on behalf of the Department of the Interior 
regarding National Heritage Areas. We have submitted written 
testimony which I would like to be included as part of the 
record.
    Senator Thomas. Your total statement will be included.
    Mr. Hoffman. Thank you. A little bit of my background, 
certainly not for your edification, but maybe for the record: 
You and I first met about 17 years ago over a plate of buffalo 
wings, if I remember correctly.
    [Laughter.]
    Mr. Hoffman. And our lives have intersected several times 
since then. But most recently, I spent 12 years as the 
executive director of the Cody Country Chamber of Commerce in 
Cody, Wyoming, a little gateway community where your roots are, 
outside Yellowstone National Park.
    It was really pleasing for me when I got to the Department 
of the Interior to learn of Secretary Norton's four ``C''s: 
consultation, cooperation and communication, all in the service 
of conservation. It seemed to me that that was the appropriate 
way for the Federal Government to do business with gateway 
communities and parks, and other stakeholders. So that was very 
refreshing for me.
    I also come with a strong belief that government at the 
lowest level is the best kind of government. I have a strong 
belief in the rights of private property owners. And I also 
have seen firsthand the benefits that Federal assistance can 
provide to communities in the area of promoting heritage 
tourism.
    A little background on the National Heritage Area Program. 
The first heritage area was designated by Congress in 1984. The 
first few, I think the first five, were arguably experimental. 
I am not sure Congress exactly knew what they were doing. It 
was a new concept, and each one had a little bit of a different 
look. And those five included a Federal advisory board for the 
management of those heritage areas. Subsequent to that, the 
Park Service has developed a criteria and a model that seems to 
be working fairly well.
    There are currently 23 National Heritage Areas. There are 
11 that have been pending designation by Congress, and there 
are 9 that are in the study phase. There are 45 million people 
in 17 States who live in National Heritage Areas.
    The Park Service has, as I mentioned, over time developed 
four criteria for designation of a National Heritage Area. One 
is the completion of a feasibility and suitability study. The 
second is significant public involvement in the preparation of 
that study. Three is demonstration of widespread public support 
among heritage area residents for the proposed designation. And 
four is commitment to the proposal from appropriate players 
which may include governments, industry, private nonprofit 
organizations, in addition to the local citizenry.
    It is our view that a feasibility suitability study should 
be completed before a designation is considered by Congress. On 
occasion, we have been authorized and asked by Congress to 
conduct those suitability feasibility studies for heritage 
areas, but in most cases, now the local groups do their own 
study, and then come to Congress for the designation.
    Suitability and feasibility study, part of its purpose 
besides the four criteria I mentioned, is to determine that an 
area contains resources of national importance. There are 10 
components that should be included in feasibility and 
suitability study. And they are in the written record, so I 
will spare you reading those. But one of the nice things about 
those components though is that it includes a significant 
connection between the human landscape and the natural and 
cultural resources, a link between the culture and the 
economies of the area and the National Heritage Area 
designation.
    Why are heritage areas appropriate as a National Park 
Service program? I think some people wonder why we are in that 
business. The fact is, the National Park Service is responsible 
for preservation of cultural and historic resources under the 
Organic Act. We administer the National Register of Historic 
Places. We administer several grant programs, including Savings 
of America Treasures which helps in the preservation of 
cultural historic resources by the private sector.
    The National Heritage Area program has proven to be a good 
alternative for those communities that want the prestige of the 
National Park Service arrowhead, but do not have a potential 
national park site. As you are well aware, we have 388 national 
park units, and there are always requests coming before 
Congress for designations.
    Most communities perceive a national park as the Holy Grail 
of tourism promotion, if you will. And a National Heritage Area 
is a nice alternative to a national park designation which, of 
course, comes with greater restrictions, greater budget 
commitments, greater management authorities over the area, over 
the land area.
    Oftentimes, National Heritage Areas can complement existing 
park units by providing an appropriate linkage between the 
gateway communities, their heritage, the role of humans in the 
landscape, history, and culture, and economies of the region, 
and how those link to the national park unit that is near those 
gateway communities. And the National Heritage Areas, I 
believe, are consistent with the Secretary's four ``C''s 
because they do require significant local input into the 
planning process and significant concurrence from the local 
citizenry to the designation of a National Heritage Area.
    What makes National Heritage Areas unique? Well, one is 
that there is no National Park Service land acquisition or 
management regime that is applied over a National Heritage 
Area. The NPS role in a National Heritage Area is one of a 
facilitator, not a manager. There is no direct Federal 
influence on zoning. Now, yes, a management plan for a heritage 
area may include recommendations for zone changes, but it is 
the local planning and zoning board that reviews those changes 
and makes those decisions. The Park Service has no role in 
that.
    There are significant matching funds that leverage Park 
Service dollars in National Heritage Areas. We require at least 
a 50 percent match of any National Park Service dollars 
provided. But, in practice, over the years we have seen an 
average of 8.7 dollars matched to every dollar of National Park 
Service money put into a heritage area. To put it into real 
dollar terms, for $107 million of National Park Service 
appropriated dollars, we have seen $929 million expended to 
benefit those heritage areas.
    There is limited funding of National Heritage Areas, and 
that is up to $1 million per year, not to exceed $10 million 
over 15 years. So there is a natural endgate to the Federal 
funding that would assist locals in the development or 
promotion of their National Heritage Area.
    One of your questions is: Do National Heritage Areas need 
legislative criteria and standards? And our short answer is: 
Yes, we believe they do. We think that a broad framework that 
sets out the criteria and components of feasibility suitability 
studies would be very helpful to the Park Service 
administration of this program. Rigorous standards and criteria 
for future designations and clearly articulated components 
should be required.
    Property rights and zoning disclaimers, which are usually 
included in the National Heritage Area establishing 
legislation, could be part of a generic National Heritage Area 
Act. But we believe it is important that we not make that 
property rights and zoning disclaimer a show stopper. You know, 
it has been suggested that we get the majority of the 
landowners to say that they approve of a heritage area. It has 
also been suggested that we require every landowner in a 
heritage area to say in writing that they approve of it. And 
that probably would be a show stopper for almost any heritage 
area. We seldom see 100 percent support of anything in this 
world today.
    We would like to see whatever standards and criteria are 
developed not be artificially constraining on the ability of 
local communities to develop their own elaborate partnerships. 
That is one of the beauties of the National Heritage Area 
Program is that it allows the local communities to put together 
their own kind of a partnership. And if we put too much 
structure, too much flesh on those bones, I think we could 
dampen their creativity in terms of how they create their own 
heritage area.
    We would like the opportunity to work with you and your 
staff on the development of generic National Heritage Area 
legislation and look forward to working with you on that.
    In conclusion, Mr. Chairman, I thank you for the 
opportunity to explain the National Heritage Area Program, the 
Department's position on codifying standards and guidelines for 
future heritage area designations. And I would be most happy to 
answer any questions.
    Senator Thomas. Thank you very much, Mr. Secretary.
    [The prepared statement of Mr. Hoffman follows:]
    Prepared Statement of Paul Hoffman, Deputy Assistant Secretary, 
        Fish and Wildlife and Parks, Department of the Interior
    Mr. Chairman, it is my pleasure to be here today to discuss the 
National Park Service's National Heritage Area Program, to update you 
on the accomplishments of the 23 existing areas, and to offer 
recommendations for improvements to the program.
    A ``National Heritage Area'' is a place designated by Congress 
where natural, cultural, historic and scenic resources combine to form 
a cohesive, nationally distinctive landscape arising from patterns of 
human activity shaped by geography. These patterns make national 
heritage areas representative of the national experience through the 
physical features that remain and the traditions that have evolved in 
them. Continued use of national heritage areas by people whose 
traditions helped to shape the landscapes enhances their significance.
    A recent National Park Service survey shows that almost 45 million 
people across 17 states live within a national heritage area. Heritage 
areas are just one of a growing number of collaborative, community-
based conservation strategies that have developed in recent years to 
identify, preserve, and interpret resources. By establishing a heritage 
area, communities work in partnership across jurisdictional boundaries 
to plan for their future, based on their shared heritage from the past.
    It is important to clarify that the Federal Government does not 
assume ownership of land, impose zoning or land use controls in 
heritage areas, or take responsibility for permanent funding. In most 
areas the authorizing legislation prohibits the management entity from 
acquiring property with funding appropriated for the heritage area. In 
addition, the authorizing legislation provides private property owners 
with specific protection. This guarantees that it will be the 
responsibility of the people living within a heritage area to ensure 
that the heritage area's resources are protected, interpreted and 
preserved.
    Almost twenty years have passed since the designation of the first 
national heritage area, the Illinois and Michigan Canal National 
Heritage Corridor. Since that time, Congress has authorized a total of 
23 national heritage areas, and absent generic criteria, the 
authorizing legislation has taken a variety of forms. While the 
earliest heritage area bills resulted in several different management 
and funding structures, the heritage areas created since 1996 have 
become more standardized in how they are studied, designated, managed, 
and funded. It is appropriate today to look at the 23 existing heritage 
areas and evaluate how this collaboration between local communities and 
the National Park Service is working. With the growing interest in 
additional national heritage area designations, it is also timely to 
look at the process by which new areas are evaluated for consideration.
    The Department of the Interior supports the heritage area approach 
for preserving resources because it is based on locally driven 
partnerships that emphasize local control of land. We recognize that 
protection of parks and the conservation of special places is greatly 
enhanced when the people who live in the region and are uniquely 
qualified to care for them are involved. Heritage areas embody 
partnerships that blend education, cultural conservation, resource 
preservation, recreation, and community revitalization, which are all 
integral parts of the mission of the National Park Service. The 
Secretary has made partnerships integral to the Department's efforts to 
preserve and protect all of our natural, cultural and recreational 
programs. Recently First Lady Laura Bush announced ``Preserve 
America'', a new White House initiative that pursues ``. . . 
partnerships with State and local governments, Indian tribes, and the 
private sector to promote the preservation of the unique cultural 
heritage of communities and of the Nation . . .''
    Our experience over the past two decades has led us to make the 
following observations about the process for the study, designation, 
and management of national heritage areas. To be successful, all 
heritage area initiatives must be developed and shaped by local people 
and by local initiative. Some of these heritage proposals also seek the 
support and assistance of the National Park Service through designation 
as a national heritage area or corridor. To warrant our involvement, 
these areas should tell nationally important stories through a 
regionally distinctive combination of natural, cultural, historic and 
recreational resources and provide outstanding opportunities for 
resource conservation. When appropriate they should also strengthen, 
complement, and support existing units of the National Park System.
    Criteria are needed to assist communities and the National Park 
Service in assessing the appropriate direction for national heritage 
area proposals. In past testimonies, we have identified the specific 
steps for national heritage designation and the components of a useful 
suitability and feasibility study. These have been field-tested and 
have shown themselves to be valuable, yet they have never been 
formalized. They are included as a possible starting point for any 
future efforts to set some criteria and standards for the establishment 
and management of national heritage areas.
    The National Park Service has outlined four critical steps that 
need to be taken and documented prior to congressional designation of a 
national heritage area. These steps are:

          (1) completion of a suitability/feasibility study;
          (2) public involvement in the suitability/feasibility study;
          (3) demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          (4) commitment to the proposal from the appropriate players, 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    A suitability and feasibility study would determine that an area 
contains resources of national importance, and should include a number 
of the components we believe are helpful for public review. Our 
experience has also shown the importance of completing the suitability 
and feasibility study before a heritage area is designated. The most 
helpful components of a suitability and feasibility study include 
analysis and documentation that show:

          1. An area has an assemblage of natural, historic, or 
        cultural resources that together represent distinctive aspects 
        of American heritage worthy of recognition, conservation, 
        interpretation, and continuing use, and are best managed as 
        such an assemblage through partnerships among public and 
        private entities, and by combining diverse and sometimes 
        noncontiguous resources and active communities;
          2. Reflects traditions, customs, beliefs, and folk life that 
        are a valuable part of the national story;
          3. Provides outstanding opportunities to conserve natural, 
        cultural, historic, and/or scenic features;
          4. Provides outstanding recreational and educational 
        opportunities;
          5. The resources important to the identified theme or themes 
        of the area retain a degree of integrity capable of supporting 
        interpretation;
          6. Residents, business interests, non-profit organizations, 
        and governments within the proposed area are involved in the 
        planning, have developed a conceptual financial plan that 
        outlines the roles for all participants including the federal 
        government, and have demonstrated support for designation of 
        the area;
          7. The proposed management entity and units of government 
        supporting the designation are willing to commit to working in 
        partnership to develop the heritage area;
          8. The proposal is consistent with continued economic 
        activity in the area;
          9. A conceptual boundary map is supported by the public; and
          10. The management entity proposed to plan and implement the 
        project is described.

    We believe that only when an area has been studied and can satisfy 
these criteria, should it be designated as a national heritage area.
    Upon designation, an area must develop a management plan to serve 
as a road map for all stakeholders that support the vision for the 
area. The plan must be developed within the timeframe specified in the 
legislation (usually 3-5 years) and approved by the Secretary of the 
Interior. For designated areas, the National Park Service's role is to 
work with the area on the management plan that will guide the heritage 
development of the region; to enter into a cooperative agreement that 
defines our partnership role and is amended each year to allocate 
appropriated funds for the identified projects that will be undertaken 
to further the plan; to monitor the expenditure of funds, to ensure 
that the funds are matched and meet all other requirements; and to 
review annual reports prepared by each management entity. The National 
Park Service, along with other Federal land managing agencies, can 
bring national recognition to the areas and provide other technical 
assistance on a case-by-case basis.
    Funding for the national heritage areas has grown along with the 
program. The formula under which many areas were authorized provided 
funding of up to $10 million over 15 years. In general, newly 
designated areas start with more modest funding as they develop their 
management plans and then receive increased support until they are well 
established. Ultimately, heritage areas are supposed to become self-
sufficient, so that available National Park Service funding can be 
shifted toward more recently designated areas. In fiscal year 2003, the 
23 areas are slated to receive $14,374,000 through the National Park 
Service. We continue to recommend that each heritage area be capped at 
$1 million per year, not to exceed $10 million overall.
    While the National Park Service and heritage area partners have 
tested the above criteria, have forged a role for the agency in the 
planning process and can demonstrate impressive leveraging and 
conservation successes for specific resources, we still have a lot to 
learn. More difficult to measure is the increase in residents and 
visitors participating in programs and activities supported by the 
heritage areas. At this time, the National Park Service, in partnership 
with the Alliance of National Heritage Areas, is working with Michigan 
State University to adapt the National Park Service's ``Money 
Generation Model'' used by park units to test impacts on a regional 
scale. The model will be tested on eight heritage areas this summer and 
fall. Even more difficult to measure is the effect the heritage area 
approach, working in partnership with so many organizations in a 
region, has on quality of life, community pride and civic engagement. 
As the partnership model becomes a way of business for all National 
Park Service programs, we would like to study these experiences as they 
relate to heritage areas to improve our ability to collaborate.
    The National Park Service recognizes national heritage areas as 
important partners for adjacent park units who are assisted by giving 
the community a voice in telling the larger story of a region, by 
building a common understanding and a vision for the future, and by 
encouraging local stewardship of key resources. For example, the newly 
designated Cedar Creek and Belle Grove National Historical Park tells a 
specific story of a crucial battle of the Civil War, yet is also part 
of the larger Shenandoah Valley Battlefields National Historic 
District. Gateway communities in particular can benefit from heritage 
planning that reinvigorates local tourist offerings with real and 
authentic experiences. The heritage area approach is one more link in a 
national network of parks and conservation areas between important 
natural resources and the people who live and work in gateway 
communities.
    National heritage areas have significance and value in their own 
right. They encompass some of the most important cultural landscapes in 
the nation exemplified by the Hudson River Valley and the Shenandoah 
Valley. They also tell stories of national significance such as the 
rise of the automobile industry in the ``Motor Cities'' of Detroit, 
Flint, Lansing and Ypsilanti that ``put the world on wheels.'' Or the 
story of big steel in the Rivers of Steel National Heritage Area in 
Pennsylvania, an industry that made possible railroads, skyscrapers, 
and shipbuilding activities across the nation. It is noteworthy that 
over 20% of all the National Historic Landmarks in the nation are 
located in national heritage areas.
    Of importance to everyone is the financial impact of heritage area 
designation. National heritage areas are cost-effective because they 
can facilitate the leveraging of funds and resources for the 
conservation of natural, cultural, and historic values. Since 1985, 
Congress has appropriated $107,225,378 to the National Park Service 
under the Heritage Partnership Program to support heritage area 
projects and programs. This allocation has leveraged $929,097,491 in 
non-National Park Service partnership funds, an impressive 1 to 8.7 
match. A well-established heritage area will have a wide range of 
funding sources; for example, the Delaware and Lehigh National Heritage 
Corridor in Pennsylvania recently issued a report that showed the 
following profile of partnership funding: 8% National Park Service 
($4,302,200), 22% U.S. Department of Transportation Enhancement Funds 
($13,051,794), 37% State ($21,705,164), 17% Local Government 
($9,952,061), and 16% private ($9,173,046). The partnership approach of 
national heritage areas attracts a flexible mix of funding that 
reflects both needs and opportunities.
    In keeping with the regional scale of national heritage areas, they 
have been able to take a broader perspective and tackle projects in 
multiple jurisdictions. In the areas of education and interpretation, 
almost all heritage areas have strong programs that reach out to 
visitors and residents across the landscape. Silos & Smokestacks 
recently won a national award from the National Association for 
Interpretation for their educational web site on agriculture ``Camp 
Silos'', which reaches not just the 37 counties in Iowa, but users from 
around the world. Greenways and trail projects are also best done on a 
regional basis. Outstanding work has been done completing the Great 
Allegheny Passage trail from Washington to Pittsburgh by the Rivers of 
Steel National Heritage Area; in adding over seventy miles of trail 
north and south of Cuyahoga National Park by the Ohio and Erie Canal 
National Heritage Corridor; and in developing the Schuylkill River 
Water Trail recently designated as a National Recreation Trail.
    To assist local partners, 14 of the national heritage areas 
administer grants programs for heritage and historic preservation 
planning and rehabilitation projects. Over 66 Save America's Treasures 
grants have been awarded through the assistance of national heritage 
areas, including two administered by the Cane River National Heritage 
Area for the Prufhome-Rouquierer House and Melrose Plantation. Heritage 
areas also work to sustain regional economies through heritage tourism 
initiatives, which illustrates that environmental protection and 
economic progress can be complementary goals. For instance, at the 
Augusta Canal National Heritage Area, the management of waterpower 
along the canal maintains the area's traditional economy.
    One of the trends in the growth of the heritage area movement is 
the increased interest in conservation, based on community 
collaboration. This is particularly true in the west where potential 
heritage areas in New Mexico, Nevada and Utah propose to tell the story 
of the peopling of the west in a multiple-use environment. Many of 
these new proposals include large swaths of land managed by the Bureau 
of Land Management and other Federal land managing agencies. These 
agencies will be important partners in the coordination of these new 
western heritage areas.
    Heritage area partnerships are also becoming more diverse. As they 
move west, tribal organizations are becoming partners as seen in Yuma 
Crossing National Heritage Area where the Quetchan Nation has 
contributed significant funding to rehabilitating a historic bridge 
over the Colorado River and is working with the heritage area on a 
major wetland restoration project. Finally, there has been a positive 
growth in state heritage programs including newcomers like Maryland, 
Louisiana, and Utah. In all, eight states across the country have state 
heritage programs.
    Heritage areas are inclusive of diverse peoples and their cultures 
because they encompass living landscapes and the traditional uses of 
the land. For example, the National Park Service is conducting a study 
for a potential heritage area to recognize the Low County Gullah 
Geechee, a geographically isolated community of African Americans who 
have retained a distinct Creole language and traditional practices with 
elements that are traceable to the rice coast of West Africa. A special 
resource study conducted in Louisiana has led to the designation of the 
multicultural Atchafalaya basin as a state heritage area.
    After almost two decades of experience with the National Heritage 
Area Program, we support the development of criteria and standards for 
the establishment and management of these heritage areas. National 
heritage areas are not units of the National Park System and, as 
demonstrated by the examples above, a proscribed, narrowly defined 
strategy will not permit the flexibility we need to manage the program. 
A broad framework that emphasizes the overall goal of resource 
conservation, that is locally driven and shaped by communities in 
partnership with Department of the Interior agencies such as the 
National Park Service and the Bureau of Land Management, and that 
maintains rigorous standards for future national heritage areas should 
be the goal of any proposed generic heritage area legislation. We would 
welcome the opportunity to work with this committee on developing such 
a framework.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

    Senator Thomas. I think that was a good insight into where 
we are. I was a little puzzled with the study phase. Now out of 
the 23, or now close to 30, how many of those have actually had 
a study before they were considered for final passage?
    Mr. Hoffman. I am not certain that the first five had 
study, but I believe all the ones subsequent to those had 
studies completed before they were designated. Some of those 
cases, Congress authorized and directed the Park Service to 
conduct those studies. Others, the studies were developed and 
prepared by the local communities.
    Senator Thomas. That may be, but as I recall them coming 
before the Congress, you know, if it is a park, then usually 
the authority that comes before the committee is to do the 
study. And then we come back with the Park Service study and 
recommendation one way or the other. I do not think that that 
has normally been the case with heritage, but I think it should 
be. So maybe we can work on that some more.
    Mr. Hoffman. Yes. The current model has been more often the 
local communities do the studies themselves with their own 
money.
    Senator Thomas. All right.
    Mr. Hoffman. And one of the advantages of that is--I mean, 
we share the criteria with them so that they are sure to 
address all those criteria, but it has them buying into the 
process from the beginning and it reduces the Federal 
obligation financially.
    Senator Thomas. Yes. Well, I would not object to the locals 
doing it, but then the Park Service ought to go over the study 
and see whether or not they think it is an appropriate result 
of the study and so on.
    How do you define ``national importance''?
    Mr. Hoffman. That is always a challenge. We apply pretty 
much the same standards or same formulas that we do for 
national parks. There are some areas that demonstrate cultural 
or historic significance that relates back to activities that 
occurred there that had a national impact. It is not an easy 
definition to come up with, but when you talk about, say, the 
Rivers of Steel National Heritage Area and the role that steel 
played in the building of ships, bridges, buildings, clearly 
the industrial revolution of the United States was tied to the 
production of steel. That is just one example.
    Senator Thomas. Yes. Coal heritage, you can argue where the 
coal heritage comes from, as a matter of fact.
    Mr. Hoffman. Yes.
    Senator Thomas. It is a little difficult. I guess here, 
again, you know, we are trying to maybe differentiate between 
what is more appropriately a local cultural thing and certainly 
worth saving, but is it a national responsibility?
    I hate to see it simply become a political thing. There 
ought to be some kind of a definition to where it is not just 
there depending on who introduces and, you know, all that sort 
of thing. I think there are about 100 State heritage areas that 
exist without Federal funding. I guess you can make the 
argument that maybe that is where they ought to be.
    Mr. Hoffman. Absolutely. Twenty-eight States have their own 
heritage programs, heritage area programs, and many of those 
heritage areas are most appropriately State heritage areas. 
They do not rise to the level of national significance.
    Senator Thomas. How do you define the level?
    Mr. Hoffman. Well, that is a little bit of the art the Park 
Service practices. And ultimately, it would come to Congress to 
look on that determination and determine if indeed it is 
national.
    Senator Thomas. As I recall, the Park Service does not 
usually take a very strong position on those one way or the 
other, not like a park. And I understand that because it is a 
different thing.
    I notice in some of the material here you said $10 million 
was the max. I think that maybe the Southwestern Pennsylvania 
Heritage Preservation Commission is quite more than that.
    Mr. Hoffman. I am not familiar with that, but I would be 
glad to get you an answer to that.
    Senator Thomas. Yes, please. I think you will find it is 
closer to $50 million.
    So, is it the view of the Agency that $10 million over 10 
years is the limit?
    Mr. Hoffman. Over 15 years, yes. No more than $1 million 
per year, not to exceed $10 million over 15 years.
    Senator Thomas. So that is pretty well defined?
    Mr. Hoffman. That is pretty well defined. And, in fact, the 
average funding has been more on the order of $250,000 a year. 
The current fiscal year 2003 budget for heritage areas is about 
$14 million. Our request in the 2004 budget is about $7 
million. Our request in 2003 was $7 million.
    Senator Thomas. What did we spend? Do you know?
    Mr. Hoffman. We are spending $14 million this year.
    Senator Thomas. We are spending $14 million.
    Mr. Hoffman. Yes.
    Senator Thomas. Okay. There is also, I suppose--and again 
there is Park Service funding, and then there is total Federal 
funding. And the total Federal funding is quite more than the 
other. You said it was about $1 out of every $6 was Park 
Service. It is about $1 out of every $2 that is Federal 
dollars, and when all the highway money, or whatever, goes into 
them; so that it is substantially more than just the Park 
Service when it is given the Federal designation now. I suppose 
those dollars could be spent whether it is designated as 
Federal or not, but those are some of the things.
    Do you have Park Service employees that are in the field, 
regional headquarters, that work on heritage areas only?
    Mr. Hoffman. Not exclusively. We have one full-time 
National Heritage Area program director at the national office, 
the Washington office, and there is at least--well, there is 
one person who has as part of their collateral duties National 
Heritage Areas in the region. It probably amounts to less than 
25 percent of their time.
    Senator Thomas. I forgot what I was going to ask you. Oh, 
the management aspect: Are you saying that the only 
responsibility after these are approved from the Park Service 
is money?
    Mr. Hoffman. To assure that the money is being spent 
appropriately under the guidelines that the Park Service has 
for matching funds with nonprofit organizations.
    Senator Thomas. And no management responsibilities at all?
    Mr. Hoffman. No, there is no Park Service management 
policies overlay. It is strictly up to whatever the local 
communities developed in their development plan. They implement 
that on their own. Most heritage areas, since the first five 
were adopted, are now managed by private nonprofit 
organizations. In some cases, they are managed by States, and I 
think maybe on a limited basis local governments manage 
heritage areas.
    Senator Thomas. Okay. I think that may be all the questions 
I have. I think we do need to define a little more clearly what 
the criteria should be for the Federal involvement. Even though 
you say it is there, and it's national interest, somehow it 
ought to be a little more common standard, I believe. And maybe 
we can come up with something of that kind and see if it fits.
    So we would like to work with you on it so that when they 
come up, why, it is not just sort of such an open field for us 
to think about and talk about here, and know a little bit more 
what would fit into the category.
    Mr. Hoffman. Yes, it would be very beneficial to us to have 
legislative criteria and guidelines.
    Senator Thomas. Good. Well, if you could give us any ideas 
any more than you have in your statement, we would appreciate 
that.
    Mr. Hoffman. Thank you, sir.
    Senator Thomas. Thank you, Secretary. It is good to see 
you.
    Okay. We have Kathryn Higgins, vice president for Public 
Policy for National Trust for Historic Preservation; Mr. Allen 
Sachse, executive director of the Delaware and Lehigh National 
Heritage Corridor; and Mr. Peyton Knight, legislative director 
for the American Policy Center, Warrenton, Virginia.
    I guess we will just take them as I read them off here, if 
that is all right. Ms. Higgins.

STATEMENT OF KATHRYN HIGGINS, VICE PRESIDENT FOR PUBLIC POLICY, 
            NATIONAL TRUST FOR HISTORIC PRESERVATION

    Ms. Higgins. Thank you, Mr. Chairman. My name is Kathryn 
Higgins. I am the vice president for Public Policy at the 
National Trust for Historic Preservation. And we are delighted 
to be here today and to talk with you about our role in working 
with heritage areas and our thoughts about how to shape the 
program going forward.
    The Trust, as I am sure you know, is a 50-year-old national 
nonprofit, concerned with helping people protect the Nation's 
historic resources. We believe that when historic buildings and 
neighborhoods are torn down or allowed to deteriorate, we lose 
not only part of our past forever, we also lose a chance to 
revitalize our communities.
    The Trust works with heritage areas in a number of 
different ways, but principally through our Main Street 
program. And we are engaged now with 18 heritage areas, and 118 
Main Street communities that are a part of those heritage 
areas. We also work with heritage areas through our rural 
programs, things like scenic byways and, very importantly, 
through heritage tourism. We also work through our Community 
Partners program which helps local communities work to get tax 
credits to help restore historic buildings in those communities 
and in those heritage areas.
    We believe that the stewardship of the Nation's cultural 
and natural resources is as outlined in the President's recent 
executive order, Preserve America, that was just signed last 
week, makes a very compelling case for the continued 
designation of heritage areas and the Federal Government's 
strong role in the creation, designation, financial support, 
and oversight.
    Preserve America sets forth the base from which these 
effective relationships may arise. These include building 
partnerships that work, promoting preservation through heritage 
tourism, encouraging stewardship of historic resources, and 
improving Federal agency planning and accountability.
    The timing of the President's Executive order is excellent. 
Support for heritage areas, as you know, has been increasing 
over the years, and in particular, there has been a noticeable 
increase in the last couple of years in the aftermath of 
September 11. In the past 3 years, the number of designations 
has increased from 18 to 23 nationally. There are 11 pending 
designations before Congress, and there are several others in 
the pipeline awaiting completion of feasibility studies.
    The local, regional, and Federal partnerships and private 
sector participation in heritage areas affect the very goals of 
Preserve America which include promoting strategic planning, 
economic development, community revitalization, and as I have 
mentioned before, tourism. Heritage areas achieve these goals 
with a fraction of the Federal costs associated with 
establishing and operating similar functions through national 
parks.
    As you have already heard, heritage areas pool local and 
regional resources and get 20 percent of their funding directly 
from the Park Service. The remaining 90 percent comes from 
Federal grants through, particularly, transportation 
enhancement programs which promote preservation, through State 
and local and private funding.
    One of the principal economic benefits for heritage areas 
is heritage tourism. As I have already mentioned, that is a 
major focus and a major goal of the President's new executive 
order. Tourism, as I am sure you have seen in your State of 
Wyoming, is big business. In the year 2000, travel and tourism 
contributed almost $600 billion to the economy, and it is the 
country's third largest retail industry. And it has supported, 
either directly or indirectly, over 19 million jobs.
    According to a 2001 report on cultural and historic 
tourism, visitors to historic sites stay longer and spend more 
money than other kinds of tourists. Visitors to historic and 
cultural attractions spend on average $631 per trip compared to 
a little less than $500 for all U.S. travelers. And they spend 
an average of four, almost five nights away from home as 
compared to not quite three and a half nights for all other 
travelers.
    As a result, the travel and tourism industry, seeing these 
trends, are tailoring travel packages to the interest of the 
individual consumer. And a growing number of visitors are 
becoming special interest travelers who rank heritage and 
cultural activities as one of the top five reasons for travel. 
Heritage areas clearly respond to that trend, and that trend is 
only going to increase over the next decades.
    Another way that we work with these areas is through our 
national Main Street center. As I have already mentioned, we 
are involved in 18 heritage areas and 118 communities. A good 
example is the work that we are doing with the first heritage 
area that was established in Illinois, the Illinois and 
Michigan National Canal Heritage Corridor. This is the first 
area designated by Congress.
    Since then, as a result of what has happened in that area, 
and it is a Main Street program, almost $10 million in public 
and private funds have been reinvested into the communities 
within that corridor. They have added 51 new businesses, and an 
additional 150 full-time jobs.
    Based on our experience in working with heritage areas 
through Main Street, our rural programs, and our tourism 
programs, the Trust would like to offer the following 
observations for building on success to date.
    Heritage areas have been locally and regionally created, 
and the leadership and management should continue at that 
level. Successful heritage areas enlist the support and 
participation of all interests in their creation, planning, and 
management. And that coalition building should continue.
    Like most new enterprises, the beginning phases of 
establishing a heritage area is the most difficult, and there 
is value in seed money in the form of technical assistance to 
help these heritage areas get off the ground. We support 
continued grants for these start-ups, but recognize the overall 
budgetary constraints and think that that funding should not go 
on in perpetuity.
    Heritage areas complement national parks and monuments, and 
recreation areas, but they are different. We believe they 
should be guided by legislation that would establish uniform 
procedures for the designation, establishment and management, 
but we also think that in tailoring that legislation, it should 
not be a one-size-fits-all approach. We need to recognize the 
unique local character within each State and within each one of 
these areas.
    Heritage areas originally are sustained by regional and 
local efforts, but we also think that there is an important 
Federal Government role, as we have already said, in their 
designation and oversight. We think the National Park Service, 
with pretty limited resources, has done a very good job of 
working with these areas and modeling very closely what they 
have done with national parks.
    We also think--and I would echo the statements of Mr. 
Hoffman--that the criteria that the Park Service uses for 
designating national parks is a model for designating heritage 
areas and getting them off the ground. After Congress approves 
a designation, it must carefully consider providing financial 
assistance for certain activities such as technical help, 
grants for preservation projects and exhibits, and related 
operational expenses. It should have maximum flexibility and 
provide each heritage area enough time to become self-
supporting before limiting or reducing assistance.
    While heritage areas must be locally driven, Congress 
should develop uniform guidelines that would reflect a common 
vision for the designation and a clear definition of what 
constitutes a heritage area. And we would look forward to 
working with you, and with the Park Service in establishing 
those criteria.
    We think that this is a valuable initiative to help local 
communities tell their story. We have lots of stories in this 
country, and that is what makes us great. And they are all 
unique. We think heritage areas are a wonderful way to allow 
communities to understand their own history, to attract 
visitors there, and to revitalize communities that perhaps have 
lost their shine.
    Again, we look forward to working with you, and thank you 
for the opportunity to testify.
    Senator Thomas. Thank you very much.
    [The prepared statement of Ms. Higgins follows:]

   Prepared Statement of Kathryn Higgins, Vice President for Public 
            Policy, National Trust for Historic Preservation

    Thank you Mr. Chairman and members of the Subcommittee for this 
opportunity to testify today on behalf of the National Trust for 
Historic Preservation concerning the designation and management of 
national heritage areas. Since Congress approved the first heritage 
area designation some twenty years ago, the National Trust has been 
highly supportive of this initiative that fosters the benefits of 
natural and cultural resource conservation across the country. We 
particularly encourage those partnerships among federal, state, and 
local governments along with the private sector that promote a greater 
understanding of America's heritage.
    For more than 50 years, the National Trust has been helping people 
protect the nation's historic resources. As a private nonprofit 
organization with more than a quarter million members, the National 
Trust is the leader of a vigorous preservation movement that is saving 
the best of our past for the future. The need for the National Trust 
has increased since its founding in 1949 just as the need for heritage 
areas has grown. When historic buildings and neighborhoods are torn 
down or allowed to deteriorate, we not only lose a part of our past 
forever, we also lose a chance to revitalize our communities.
    Since 1980, the National Trust's Main Street Center has been 
working with neighborhoods across the nation to revitalize their older 
or traditional commercial areas through historic preservation. The 
program was originally developed to save historic commercial 
architecture and the fabric of the built environment, but it has become 
a powerful economic development tool as well. The best example I can 
provide you comes directly from the Delaware & Lehigh National Heritage 
Corridor. There, an initiative modeled after the Main Street program 
was launched last year that is specifically designed to breathe new 
life into 6 of the area's historic business districts along the spine 
of the canal. Called the ``Corridor Market Town Initiative,'' it is a 
blend of regional heritage preservation and main street revitalization 
for Slatington, Palmerton, Lehighton, Jim Thorpe, Lansford, and White 
Haven. The State of Pennsylvania provided funding for this project.
    Similarly, the National Trust--as one of the partners with the 
National Park Service in the Save America's Treasures program (SAT)--is 
working to protect America's threatened cultural treasures along with 
Honorary Chair Laura Bush. In the Cane River National Heritage Area, 
SAT monies and private sector matching funds were used to restore the 
historic Prudhomme-Rouquier House, which was re-opened to the public 
last year, and attracts many tourists annually. SAT monies are also 
being used to restore Melrose Plantation nearby. These sites are 
significant to the history and the heritage tourism of the Cane River 
National Historic Area.
    Through our Community Partners division, the National Trust assists 
preservation organizations, local governments, and community 
development corporations in revitalizing historic properties, central 
business districts, and urban neighborhoods. The link between older 
buildings, historic places, and economic development--one of the major 
byproducts of heritage areas--is crucial to our efforts. Among the 
tools our Community Partners division uses to leverage private re-
investment in historic properties is the Historic Rehabilitation Tax 
Credit--an incentive that has widespread utility to restore buildings 
for commercial re-use in heritage areas across the county.
    The National Trust believes that the stewardship of the nation's 
cultural and natural resources as outlined in the President's recent 
Executive Order ``Preserve America'' makes a most compelling case for 
the continued designation of heritage areas and the federal 
government's strong role in their creation, designation, financial 
support, and oversight. While such places originate from, and are 
sustained by, regional and local efforts, the federal government is 
their natural and necessary partner. Preserve America sets forth the 
base from which these effective relationships may arise, and highlights 
all the ingredients that the National Trust and local and regional 
organizations use in creating effective heritage areas. These include 
building partnerships that work, promoting preservation through 
heritage tourism, stewardship of historic resources, and improving 
federal agency planning and accountability.
    The President's timing for the Executive Order is excellent. 
Support for heritage areas has been increasing over the years and has 
grown noticeably with the country's stronger connection to its history 
and culture in the aftermath of September 11th. In the past three years 
the number of designations has increased from 18 to 23 nationwide. So 
far, there are 11 pending designations before Congress and several 
other initiatives in the pipeline to study the feasibility of 
designation. Furthermore, the National Park Service has 3 feasibility 
studies underway related to the establishment of such areas.
    Heritage areas are so popular because they work across several 
levels of government in conjunction with the private sector. So many of 
these partnerships effect the very goals of Preserve America in 
leveraging to communities economic development, tourism, strategic 
planning, redevelopment, and revitalization benefits through our 
national legacy. And heritage areas achieve these goals with a fraction 
of the federal costs associated with establishing and operating similar 
functions through a National Park. Heritage areas pool local and 
regional resources on a targeted basis to achieve their goals. Since 
the program began only 10 percent of the overall funding for heritage 
areas has come from the federal government. State and local governments 
have provided 36 percent and the private sector has contributed 26 
percent. One of the main reasons why heritage partnerships are so 
popular is because of the economic development dividend it provides to 
localities and regions.
    One of the principal economic benefits is tourism. The National 
Trust defines cultural heritage tourism as ``traveling to experience 
the places and activities that authentically represent the stories and 
people of the past and present.'' Heritage tourism includes the very 
historic, cultural, and natural resources that heritage areas seek to 
protect and offer the American public. Two significant travel trends 
will dominate the tourism market in the next decade. Travel packages 
are being tailored to the interests of the individual consumer and a 
growing number of visitors are becoming special interest travelers who 
rank the arts, heritage and/or other cultural activities as one of the 
top five reasons for traveling.
    Let me provide you with a concrete example of the economic benefits 
that heritage areas leverage into states and local communities from the 
National Trust's perspective. In 1991, our National Main Street Center 
established a Main Street program in the Illinois and Michigan National 
Canal Heritage Corridor--the first heritage area designated by 
Congress. Since the program was established, almost $10 million in 
public and private funds have been reinvested in the communities within 
the Corridor such as Lockport and the Upper Illinois Valley with a new 
gain of 51 businesses and 150 full-time jobs. The I&M Canal program is 
now part of the Illinois statewide Main Street program.
    Based on our experience with heritage areas through the National 
Trust's Main Street, Rural Heritage, and Heritage Tourism Programs, I 
would like to offer the following observations for building on the 
successes of the twenty years of the national heritage area act.

          1. Although heritage areas most often complement national 
        parks, national monuments, and national recreation areas, 
        heritage areas are different by their very nature. They often 
        include existing federal, state, and locally protected areas, 
        communities, and jurisdictions, and embrace different 
        combinations of resources. Since heritage areas begin at the 
        local level, organizers seek to establish coalitions of 
        governments, agencies, and private sector partners that are 
        highly responsive to the unique characteristics of that 
        particular designation, including economic development plans 
        that highlight and enhance the rich historic qualities 
        distinctive to that area. Heritage areas must be guided by 
        strong legislation that would establish uniform procedures for 
        their designation, establishment, and management--but at the 
        same time Congress must recognize that a one-size-fits-all 
        approach would be inappropriate for local historic and cultural 
        resources.
          2. Heritage areas have been locally or regionally created and 
        the primary role should be at that level.
          3. Heritage areas respond to the need to integrate natural 
        and historic resource protection with sustainable economic 
        activity. Successful heritage areas must enlist the support and 
        participation of all interests in their creation, planning, and 
        management.
          4. Heritage areas respond to local or regional goals to 
        maintain and promote individual character and identity, and to 
        resist being overwhelmed by homogenous sprawl. Restoring 
        buildings and preserving natural and cultural resources 
        sustains a community's special character, and enhances economic 
        activity.
          5. Like most new enterprises, the beginning is the most 
        difficult period in the creation of viable heritage areas. 
        Organizing and involving the many diverse public and private 
        interests is extremely labor intensive. Seed support in the 
        form of technical assistance is critical. The Trust supports 
        grants for these start-ups, but recognizes the budgetary 
        limitations in this area.
              the federal role in national heritage areas
    Heritage areas originate and are sustained by regional and local 
efforts, but the National Trust strongly supports the federal 
government's role in the creation, designation, oversight, and 
financial support of national heritage areas. The federal government is 
a natural and necessary partner and can serve as a clearinghouse for 
technical expertise and information to replicate best practices in the 
establishment of future heritage areas.
    The National Trust recognizes the invaluable role of the National 
Park Service in the area of heritage conservation for many years and in 
managing heritage partnerships--with technical assistance--throughout 
the country. Furthermore, the Park Service's expertise in recommending 
to Congress the establishment of National Park units should guide its 
role in assisting--not leading--communities as they assess their 
resources and plan for their conservation and interpretation. The 
National Trust recommends that Congress consider a framework for 
heritage areas and a role for the NPS that would:

          1. fund and evaluate Congressionally authorized feasibility 
        studies;
          2. require the completion and approval of a feasibility study 
        before proposing an area for designation;
          3. provide recommendations to Congress for designation of a 
        heritage area after the review of feasibility studies;
          4. approve the designation's management plan; and
          5. provide financial assistance to designated areas for the 
        development of a required management plan and other activities 
        pursuant to that plan approved by the Secretary.

    After Congress approves a designation, it must carefully consider 
providing federal assistance for certain heritage area activities such 
as technical help, grants for preservation projects and exhibits, and 
related operational expenses. The National Trust urges the committee to 
provide maximum flexibility for this funding to ensure that the 
responsible parties can fully implement their heritage area plans. 
These plans are developed locally and areas may need to use funds in 
different ways to implement their goals. In addition, Congress should 
provide each heritage area enough time to become self-supporting before 
limiting or reducing federal assistance. We recommend that the 
committee review the need for longer-term operations funding in its 
consultation with the coordinating entities from existing heritage 
areas.
    Lastly, while heritage areas must be locally driven, Congress 
should develop uniform guidelines that would reflect a common vision 
for their designation and a clear definition of what constitutes a 
heritage area. The National Trust advises against guidelines that would 
place severe limitations on future designations or hamper the efforts 
already underway at existing areas, but a basic framework is necessary 
for the future success of the program. The National Trust would be 
eager to work with you in setting forth such guidance.
    Mr. Chairman, the heritage areas program is tremendously valuable 
to telling this great nation's story to present and future generations. 
It has another valuable story to tell as well that our historic and 
cultural resources are important assets to our sense of place. In 
providing that sense of place these resources also generate economic 
development and foster community revitalization. Heritage areas convey 
all these benefits with a comparatively small percentage of federal 
investment and utilize the combined resources of the local and regional 
support that underpins the program. With appropriate guidance and 
legislation from Congress, and a well-defined federal role, the 
heritage areas program will continue to be a most successful model for 
the future.

    Senator Thomas. Mr. Sachse.

STATEMENT OF C. ALLEN SACHSE, EXECUTIVE DIRECTOR, DELAWARE AND 
          LEHIGH NATIONAL HERITAGE CORRIDOR COMMISSION

    Mr. Sachse. Mr. Chairman. My name is Allen Sachse. I'm the 
executive director of the Delaware and Lehigh National Heritage 
Corridor Commission. And I guess we are one of the experimental 
areas--oh, is this not on? Okay. I am sorry.
    I guess we are one of the experimental areas because we 
were the third designated National Heritage Area. D&L, as we 
call it, is located in the eastern Pennsylvania, five counties, 
and it has long been known as an area with great opportunity. 
This is where America's anthracite coal, iron and steel, and 
transportation industries emerged and flourished for decades, 
and became giants in the American industrial revolution.
    Following World War II, though, these significant 
industries and this transportation corridor started to decline. 
The mines closed. The railroads no longer were competitive, and 
the steel production started moving elsewhere.
    Visionaries in the area searched for ways to protect this 
nationally historic story. And in the late seventies, the 
historic canal and overland railroads became the focal point 
and inspiration for the region. The designation as a National 
Heritage Corridor was the inspiration to lead us to the process 
of heritage development.
    After the designation, an extensive public dialogue 
followed. And along the path of implementation, the Commission 
has funded over 110 projects, and we have formed many 
partnerships on the way. I am pleased to report for every 
dollar that Congress has appropriated to us through the 
Heritage Partnership Program, we have leveraged over $10.
    I would like to share with you a couple of our major 
accomplishments. The spine of the Delaware and Lehigh is this 
historic transportation system. And along this system, we are 
in the process of establishing a 160-mile trail.
    At the time we were putting our management plan together in 
the early nineties, 75 percent of this land had public access. 
A big portion of it was owned by the State. I can report that 
we have received some funding through the ISTEA Program, and we 
have been able to work with local governments and nonprofit 
groups to fill in the gaps where this right-of-way was missing.
    We have right now underway 70 or 60 miles of this local 
government portion that is under design. And of that we have 
funding in place already for construction of trail along 30 
miles of that. We have helped the State park gather funding to 
refurbish some significant resources in the Delaware Canal such 
as locks and aqueducts.
    As we move forward, we realize that there is a burden there 
with municipalities maintaining this trail as it is being 
built. So we have created a volunteer maintenance crew. We call 
it the D&L Tenders. In the first 4 years of the program, we 
have had 3,000 volunteers come forward, and they have provided 
22,000 hours of time to the D&L Trail.
    One of our most gratifying partnerships was a project 
called the Number 9 Mine and Wash Shanty in Lansford. This is a 
mine that closed in 1972. At the time, it was the longest 
continually operating anthracite coal mine in the world. In 
1994, volunteers started the process of opening it, and 
creating a museum at the Wash Shanty. The commission helped 
them with assistance, and grant management, and interpretation 
in funding. And last summer, the museum was opened.
    Our most notable partnership is Two Rivers Landing in 
Easton. It was led by the city of Easton, and it focused on the 
corner of public square. They had three out of four buildings 
abandoned. And today, on that square, is the national--our 
visitors center, the Crayola Discovery Center, the National 
Canal Museum, Crayola Store, McDonald's Express, City Hall. 
This particular project has brought 2 million visitors to the 
city of Easton since 1996, and has resulted in over 300 
businesses being either opened or expanded, most of them 
expansions.
    We recently started a project with the Pennsylvania 
Downtown Center. They give services to six small towns in our 
corridor along the spine. What we have done is put together a 
partnership that is going to give assistance to the communities 
in combining the Main Street approach and also our heritage 
development approach. I would like to say that often we are 
perceived as having--or our National Heritage Areas, as having 
regulatory power over land use. We do not. Our public law 
restricts us from that.
    In conclusion, I would like to note that the commission 
serves as an enabler, a facilitator, a keeper of the vision. We 
are not managers of the resources, for we own none. We have no 
special authority or regulatory power. We really should not 
have any. Our initiative programs and actions are a result of 
local communities and the residents of that area. And we really 
have erased much traditional political boundaries and have 
inspired accomplishments beyond what we imagined at the 
beginning. Thank you.
    Senator Thomas. Okay. Very fine. Thank you very much.
    [The prepared statement of Mr. Sachse follows:]

      Prepared Statement of C. Allen Sachse, Executive Director, 
       Delaware and Lehigh National Heritage Corridor Commission

    Mr. Chairman, and distinguished members of the Subcommittee, my 
name is Allen Sachse, and I am Executive Director of the Delaware and 
Lehigh National Heritage Corridor Commission. The Commission is the 
administrator of the National Heritage Corridor (NHC) and PA Heritage 
Parks Program (PHPP) for the Delaware & Lehigh heritage area of eastern 
Pennsylvania. I also sit on the Board of Directors of the Alliance of 
National Heritage Areas and serve as President of the Board of the PA 
Heritage Parks Association. Prior to my existing position, I was 
employed with the Commonwealth of PA and involved with the crafting and 
implementation of the PA Heritage Parks Program. I appreciate the 
opportunity to appear before the Subcommittee to offer my observations 
of the growing heritage movement and share with you some of the 
specific opportunities resulting in real accomplishments in the 
Delaware and Lehigh NHC.
    The last two decades has seen the emergence of heritage area 
partnerships across the country, each attempting to tell its part of 
the American story. Today there may be 200 or more such projects. As 
you know, Congress has recognized 23 as being worthy to be designated 
as National Heritage Areas. Having had the opportunity to assist many 
of the PA Heritage Parks evolve from a vision to a reality, I believe 
there are some very common similarities among the more successful 
heritage partnerships:

  <bullet> Foremost is the strong local pride of heritage, history, 
        place and the belief that the region has a story to share;
  <bullet> This pride is embraced by the broadest range of community 
        leaders--representing the fields of conservation, preservation, 
        education, economic development and government;
  <bullet> The region exhibits a distinctive landscape, clearly 
        reflecting its cultural and natural heritage; and
  <bullet> Finally, there is a genuine consensus that the protection of 
        heritage resources will improve the quality of life and enhance 
        the region's economic base.

    Heritage areas are driven by citizens, proud of their heritage and 
place, desiring a prosperous future for their grandchildren, while 
honoring and showcasing the sacrifices of their grandparents. Heritage 
area partnerships contribute significantly to the quality of life for a 
region. However, I think we all agree, not all heritage areas should be 
national heritage areas. The formulation of a credible process to 
determine whether a heritage area is to receive such a designation by 
Congress is a challenge. I would suggest the final designation should 
follow, not precede, a process to determine the significance of the 
story, the collection of resources supporting the determination of 
significance, the integrity of those resources, the complexity of the 
challenge, and the leadership capacity of the region to carry out the 
vision. Later, I will offer some suggestions as to a process that has 
worked in PA.
    Congress designated the Delaware & Lehigh National Heritage 
Corridor in November of 1988 by Public Law 100-692. The Act also 
established a 21-member federal Commission to develop a management 
action plan and to implement the plan. The Corridor was the third such 
designated area and had few models or examples to follow. The growing 
pains of being locally driven and managed but operating within a 
federal structure were sometimes confusing and often challenging. The 
Commission is very appreciative of tremendous support and assistance 
received from the Mid Atlantic Regional Office of the National Parks 
Service in the early days. Much of our success can be contributed to 
the guidance received from the NPS in crafting a regional vision for 
heritage preservation and development. We still call upon the same 
office of the NPS for guidance and assistance, only less frequently, 
and I am happy to report the assistance is always there.
    In January 1993, the Management Action Plan (MAP) was completed and 
submitted to the Secretary for review and approval. Ironically, the MAP 
process consumed half of the Commission's initial authorization period. 
When the Commission was due to sunset in 1998, the Commission was still 
in the early stages of implementation. Thus, the Commission requested 
and received from Congress an extension of its authorization by Public 
Law 105-355.
    The Delaware & Lehigh NHC is located within five counties of 
eastern PA and today is home to over 1.5 million Pennsylvanians. The 
Corridor has long been known as a land of great opportunity. Hard-
working people, entrepreneurial leadership, and an abundance of natural 
resources lead to early and enduring innovations in transportation and 
industry. This is where America's anthracite coal, iron and steel, 
transportation, cement and other industries emerged and flourished for 
decades to become the giants of the American Industrial Revolution. It 
became home, and still is today, to a diversity of immigrants seeking 
opportunity and a new life for their families in America. The Corridor 
was often the platform for many social changes that are now taken for 
granted--including religious freedom, the separation of church and 
state, equality among people and workers rights.
    In the years following World War II, this significant industrial 
and transportation corridor began to unravel. As the mines in the north 
closed, the railroads could no longer compete with the interstate 
highway system, and steel production started moving elsewhere. During 
the last half of the 20th Century, the Delaware, Lehigh, and Wyoming 
Valleys separately tackled the industrial decline, seeking new ways to 
grow and prosper into the 21st Century. However, visionaries in each of 
the Valleys toiled over ways to protect their part of this nationally 
significant story. In the late 70s, the historic canal and overland 
rail system provided a common focal point and the Congressional 
designation of the Delaware & Lehigh NHC was truly the inspiration to 
nurture the concept of heritage preservation/development.
    The Commission led an extensive public dialogue and a multi-faceted 
vision for the Corridor evolved from its residents and leaders:

  <bullet> A region that becomes even more strongly defined by the 
        remarkable remains of history--a greener region, with towns 
        centered on clean rivers;
  <bullet> The continuation of innovation that has always characterized 
        the Corridor, with the capacity to sustain a healthy 
        environment and visible heritage for our children;
  <bullet> A robust economic future based on the desirability and 
        rarity of our singular natural and cultural environment, a 
        park-like living landscape; and
  <bullet> Pride and an ethic of stewardship growing in the heart of 
        every resident--to understand the meaning of what we have, and 
        act to uphold it.

    To achieve the vision, the Commission undertook an ambitious 
agenda. We are extremely proud of the many partnerships with 
conservation, preservation, and development agencies established along 
the way. Since the approval of the MAP, and the designation of the 
corridor as a PA Heritage Park the same year, the Commission has funded 
and managed over 110 projects supporting the mission of the Corridor. I 
am pleased to report for every dollar appropriated by Congress to the 
Delaware & Lehigh via the Heritage Partnership Program, the Commission 
and our partners have successfully leveraged over ten dollars in 
funding from other sources. (Through FY 02 the Commission has received 
a total of $5,140,200 in Heritage Partnership funding.)
    The MAP outlined a four-fold mission. To demonstrate the 
possibilities and exemplify the empowerment of heritage partnerships I 
would like to share with you a major accomplishment in each track:

    To conserve the historic canals and amplify the recreation and 
                educational opportunities based on them

    D&L Trail--The 160 mile historic transportation system of overland 
railroads and canals is the ``spine'' of the corridor. The system was 
remarkable in its time for its engineering, innovation and vision. 
Today it is remarkable for its integrity and endurance. The Lehigh 
Canal was the nation's longest operating towpath canal. (Over 100 years 
ceasing operations in 1932) The lift locks in the Upper Grand Section 
of the Lehigh Canal were twice the scale of anything built at that 
time. The Switchback Railroad was the first commercially successful 
railroad in the nation. The Delaware Canal remains the most intact 
towpath canal in the country and is recognized as a National Historic 
Landmark. This transportation system is the centerpiece of an extensive 
system of sites, facilities and tours that collectively will tell the 
Corridor's stories.
    When writing the MAP, approximately 75% of this historic system was 
in public ownership and two-thirds of it opened as a trail, with much 
of the it in need of upgrading. It was apparent very early in the 
planning process that completing a trail from Wilkes-Barre to Bristol 
was a high priority to the citizens. Recently a multi-year acquisition 
project involving 30 miles of abandoned railroad right-of-way was 
completed. The major gaps along the D&L Trail have been closed. The 
Commission obtained funding for this project through the ISTEA program 
and managed the project on behalf of several partners, who were the 
receivers of the rail-to-trail. Already one-third of this future 
portion of the trail is under design. The design for the remaining will 
be awarded this spring using TEA, state and local funding. In another 
portion of the D&L Trail, the Commission expects to complete the design 
for 25+ miles of the Lehigh Canal Towpath this summer with the project 
going out to bid shortly afterwards. This project was also worthy of a 
TEA grant.
    Along the Delaware Canal State Park, the Commission has obtained 
TEA and other funding to assist with restoration and interpretation of 
major canal structures, allowing water to flow freely again--Tohickon 
Aqueduct, Ground Hog Lock, New Hope Lock #11 and Bristol Lock #4.
    Support for the D&L Trail goes beyond the Corridor, as demonstrated 
by the fact that Commission has leveraged $14.8m in Transportation 
Enhancement funding--a figure equaling 24% of our total funding. This 
would not have been possible without a compelling case set forward in 
the MAP, strong citizen support, and the demonstrated capacity of the 
Commission to complete multi-jurisdictional projects. When complete, 
the D&L Trail will offer a great recreational experience, but beyond 
that it will provide outstanding interpretation of one of the nation's 
oldest transportation system from mine to market. The D&L Trail, a 
resource once thought of only as a dream, is well on its way to 
becoming a reality.

     To broadly tell the story of the region by strengthening the 
            infrastructure for interpretation and education

    The Commission relied heavily on the expertise of the NPS to craft 
the framework for the interpretive part of our mission. As you can 
imagine the complexities were enormous. By way of an Intergovernmental 
Personnel Agreement, the Commission obtained the services of an 
Interpretative Planner, who skillfully managed the process. The 
Commission now has in place: Visually Speaking--a signage and graphic 
system; Flexible Exhibit Guidelines--for use at D&L Landings and 
exhibits at partner sites; and an Interpretation and Education Plan--to 
assist partners in defining and telling their part of the D&L story. 
Collectively they provide the ``tool kit'' necessary to connect the 
hundreds of communities, trails, cultural sites, interpretative 
facilities, as well as projecting a common image for the Corridor.
    No. 9 Mine and Wash Shanty Museum--An extremely gratifying 
partnership is the No. 9 Mine and Wash Shanty Museum in the small 
community of Lansford. First open in 1855 as a part of the Lehigh Coal 
and Navigation Company's holdings. When closed in 1972 the mine had the 
distinction of being the oldest continually operating anthracite mine 
in the world. For years there was a grassroots effort to save this part 
of the anthracite story. In 1994, volunteers begin the laborious 
process of re-opening the mine for tours and creating a museum at the 
abandoned wash shanty. The Commission provided assistance in grant 
management, interpretation, as well as, funding for planning and 
implementation. As volunteers unsealed the mine and removed decades of 
muck from the No. 9, while a parallel effort to establish a museum 
moved forward.
    Today, they mine Dreams! The mine re-opened, in June 2002, giving 
6,000 visitors the experience of going 1,600 feet in the side of a 
mountain, and a visit to the Wash Shanty is like a visit to the 
``town's attic.''
    Levee Trail--The best way to experience the D&L wayside signage 
system is join hundreds of Wyoming Valley residents walking the 
recently completed portions of the soon-to-be 12 mile levee trail and 
watch them pausing to read the history and stories of the Valley. This 
same type of interpretation will be part of the D&L Trail as 
construction proceeds.

     To establish a framework for stewardship, which will preserve 
  significant historical sites, enhance recreation, and conserve the 
                    natural and cultural environment

    D&L Tenders--It was quite apparent as we worked with local partners 
to assume more responsibility for the operation and maintenance of the 
trail system that the capacity of local communities to care for the 
improvements needed to be addressed. A partnership between the 
Commission and the Wildlands Conservancy, a local non-profit, was 
formed to create a citizen volunteer group called the D&L Trail 
Tenders. Initially, working within the Lehigh Watershed, the Wildlands 
formed a core of volunteers to serve the Lehigh Canal portion of the 
D&L Trail. This is a region where much of the historic trail is owned 
and managed by small communities and non-profit groups. The pilot 
program was a huge success. Recently the Commission assumed the 
leadership of the program so that the program could extend beyond the 
boundary of the Lehigh reaching the Wyoming Valley to the north and the 
Delaware Valley to the south. In just four years there have been over 
3,000 volunteers giving more that 22,000 hours of time to the D&L 
Trail. They have removed shrubs and trees from the locks of the Upper 
Grand Section of the Lehigh Canal, discovered and unearthed a hidden 
railroad roundhouse in Lehigh Gorge State Park, and removed tons of 
litter and debris from the Lehigh Canal, Trail and River.

     Provide opportunities for capitalizing on Heritage Development

    Two Rivers Landing--Upon the completion of the MAP, the City of 
Easton (pop. 30,000) stepped forward and invited the Commission to 
partner with the city on two initiatives recommended in the MAP--the 
creation of a Landing (visitor center) and the development of a 
``heritage attraction.'' Seed funding from several of the partners led 
to a plan and revitalization strategy for downtown Easton drawing on 
the wealth of heritage resources in the city. The partnership included 
the City of Easton, Binney & Smith (Crayola), Hugh Moore Historical 
Park and Museums (HMHPM), Easton Economic Development Corporation, 
Lafayette College, and the Commission. The focus was to design an 
investment strategy for a quarter section of the pubic square. This 
corner contained the largest department store in the city that was 
vacant for four years, an abandoned shoe store, and a nine-story office 
building vacated for several years. Two of the three buildings were 
architecturally important to downtown Easton. The only viable business 
on the corner was a jeweler. The plan evolved into a powerful concept 
known as Two Rivers Landing. With significant funding commitments from 
the state, city and private sources, the concept moved forward. Today 
these same buildings house the National Heritage Corridor Visitor's 
Center, Crayola Factory (discovery center), the National Canal Museum, 
Crayola Store, McDonald's Express, City Hall, and office space.
    Since the opening of the Landing in the summer of 1996 over two 
million visitors have passed through the door. Easton has experienced a 
dramatic restructuring of its economic base. In the spring of 2000 the 
Business Activity Report for the City listed 337 new or expanded 
businesses. In the first seven-year period after the 1993 announcement, 
employment increased 26% from 9,189 to 11,601, a gain of more than 340 
jobs per year. During the same period the Business Privilege Tax 
receipts increased 57%. Probably the most telling statistic is the 
daily cars parking at the municipal garage increased--6,739 a year in 
1995 to 67,333 a year in 1999.
    The Corridor Market Towns Initiate (www.markettowns.net)--Each of 
proceeding examples focuses on a major part of our mission. In reality, 
most initiatives or projects cover a multitude of goals and I would 
like to offer one more initiative that demonstrates the power of 
heritage preservation and development that is still in its formative 
stage.
    Market Towns is a cooperative effort between the PA Downtown 
Center, a statewide non-profit, and the Commission. The partnership 
also includes six small towns (none over 5,000 in population) along the 
``spine'' of the Corridor. The communities share a common history 
linked by the Lehigh Canal, railroads, industry, and natural resources. 
These communities also share a desire to improve their livability and 
economic health, but have limited resources.
    The PA Department of Community and Economic Development granted 
four-year funding support to the partnership for a ``pilot'' community 
revitalization project that will embrace the heritage resources of the 
region. The Market Towns Initiative will combine the four point ``Main 
Street'' approach with our 'heritage development' approach. The Market 
Towns Manager is in place and the project has been up and running for a 
year. Already the Market Towns office has a full agenda with new 
historic districts, trails linking to the D&L Trail, facade and store-
front improvements, investment strategies for historic properties, 
streets-scrapes, gateways and interpretation of key resources. The 
Market Towns has provided optimism and inspiration to a part of the 
Corridor that, more often than not, found it difficult to keep pace 
with its more aggressive and better-equipped metropolitan neighbors.
    The Delaware & Lehigh NHC, unlike many National Heritage Areas, has 
the good fortune to also receive support from the PA Heritage Parks 
Program (PHPP), which is administered by the PA Department of 
Conservation and Natural Resources. In fact, over the years, the 
Commission has received PHPP funding totaling $5.7 million, which is 
slightly more than the NPS Heritage Partnership funding for the same 
period. The two programs have been very complementary and provided the 
Commission the flexibility needed to move the vision forward, 
especially in the early years. Most of the PHHP funds were extended to 
local partners to support local projects, which in turn leveraged 
additional local funding.
    The Commission is particularly pleased with the amount of private 
funding forthcoming to support the initiatives of the Commission and 
our partners. Support from private sources amount to approximately 15% 
of all funds. However, most of the contributions have been to our 
partners in support of local share. As you might suspect, sometimes 
there is a reluctance to contribute directly to the federal government 
no matter the size of the Commission. It is still very gratifying and 
speaks of the broad support and types of partnerships the Commission 
has had.
    Also, it is apparent that various programs, such as the D&L 
Tenders, will require continual private support. A parallel non-profit 
agency was recently created to assume the management of such 
activities.
    You have asked me to address the issue of impact on private lands. 
Sometimes there is perception, not based on fact, that national 
heritage areas have some special regulatory authority. In addition to 
the NHC status, the Delaware & Lehigh is also a federal commission and 
a designated PA Heritage Park. The Public Law 100-692, designating the 
NHC and creating the Commission, gives us no power or authority to the 
Commission over local lands. The Commission is able to acquire lands 
only from willing sellers and must transfer any lands acquired to a 
local agency. Likewise, the PA Heritage Park designation provides no 
such authority and if it did so, the Commission is still governed by 
the Public Law 100-692.
    I can report to you that although the Commission has assisted with 
land acquisition, we have never had the need to acquire land even for 
an interim period. For example, when acquiring the previously mentioned 
30 miles of abandoned rail right-of-way, the Commission managed the 
ISTEA process and assisted with land negotiations on behalf of a 
county, a township and a non-profit agency. The land was owned by two 
railroads the Northern, Blue Mountain and Reading and the Norfolk 
Southern. The right-of-way was at one time the main line of the former 
Lehigh Valley RR. Historically, Lehigh Valley obtained full control of 
all their main lines. The land was acquired directly by the local 
agencies.
    Additional issues relating to both private and public lands are 
already being addressed as design of the trail moves forward. These 
issues include the conflicts of use and respect for the rights of 
adjoining properties owners. The greatest concern by adjoining property 
owners is a pre-existing problem, and that is trespassing by users of 
off-road motorized vehicles. This is a valid concern to the Commission, 
and the local land managers have determined that this use will not be 
allowed. The D&L Tenders will be of great assistance to the local 
managers in monitoring this activity. Also, the Commission is working 
with various partners to find a suitable place for off-road motorized 
vehicles.
    Finally, I would like to briefly revisit the designation process. 
The PA Heritage Parks program requires a two step process before 
designation is granted. First is the feasibility study, which 
determines the study area, the lead agency, the stakeholders, the 
public support, the appropriate theme(s) within the state framework, 
and supporting resources. If approved by a state interagency task 
force, the project area may go forward to the management action plan 
phase. If not, the applicant is offered assistance through the more 
traditional categorical and technical assistance programs. When 
completed, the management action plan will be reviewed by the same 
interagency task force, which, if appropriate, makes a recommendation 
for approval to the Governor. The Governor has final approval. The 
state provides funding assistance for the two-step planning process.
    A comparison of the process as it relates to the Delaware & Lehigh 
and the Congressional designation would be as follows:

  <bullet> November 1988 Delaware & Lehigh was designated a NHC
  <bullet> In 1990 planning for both the NHC and the state heritage 
        park commence
  <bullet> The MAP was completed in January 1993 and submitted the 
        Secretary of Interior and the Commonwealth of PA for review and 
        approval
  <bullet> In April 1993 the Governor of PA approved the Delaware & 
        Lehigh as a PA Heritage Park eligible for management and 
        implementation funding

    The key is the PA process allows for public dialogue before the 
designation is approved.
    In conclusion, I believe it is extremely important to note that the 
Commission serves as an enabler, facilitator and a ``keeper of the 
vision.'' We are not managers of resources for we own no land. We have 
no special authority or regulatory power over local land use, nor 
should we have. Our initiatives, programs, actions and projects are in 
response to requests from local agencies and the residents of the 
corridor. Our heritage projects have erased traditional boundaries and 
our partnerships have inspired accomplishments beyond our imagination. 
A strong, locally driven heritage partnership is truly a powerful tool 
for balancing the past and the future.
    Again, I thank you for the invitation to appear before the 
Subcommittee. I appreciate your interest in the heritage partnership 
movement. As you know, every heritage area is unique to local resources 
and leadership, and I do not presume to speak for all heritage areas. I 
am available to answer any questions you may have and I would like to 
extend an invitation to you or your staff to visit the Delaware & 
Lehigh NHC to see first hand the accomplishment of our partnership.

    Senator Thomas. Mr. Knight.

  STATEMENT OF PEYTON KNIGHT, LEGISLATIVE DIRECTOR, AMERICAN 
                         POLICY CENTER

    Mr. Knight. Mr. Chairman, thank you for the opportunity to 
appear before you today on behalf of property rights advocates 
across the country who are concerned with the impact of 
National Heritage Areas on land use, private property rights, 
and local communities.
    One of the biggest fears that both residential and 
commercial property owners have about heritage areas is that 
they will effectively lead to restrictive Federal zoning and 
land-use planning. Why do they fear this? Because funding and 
technical assistance for heritage areas are currently 
administered through the National Park Service, an agency that, 
unfortunately, has become synonymous with lost property rights.
    Indeed, section 6.1.6 of the management plan for the 
National Coal Heritage Area in West Virginia, a management plan 
that was created with funding and technical assistance provided 
by the Park Service, states, ``Southern West Virginia counties, 
like rural areas across the United States, lack land-use 
controls completely or else have controls that are weak or 
ineffective. The visual landscape that results is often 
cluttered and frequently unattractive.''
    This, of course, is a blatant move towards increased 
restrictions on development, and stringent zoning controls.
    Furthermore, language of restricted land use is not unique 
to the National Coal Heritage Areas. Nearly every heritage area 
has a management plan or statement of purpose that calls for 
restrictive zoning regulations, under the auspices of more 
environmental protection, more open space and more historic 
preservation. This typically results in more infringements upon 
the property rights of landowners located within the boundaries 
of the heritage areas.
    Now, proponents of National Heritage Areas have claimed 
that the Park Service merely provides technical assistance and 
innocently serves as a conduit by which funds are transferred 
from the Federal Government to the citizen planning boards and 
special interest groups entrusted with the crafting of the 
blueprints governing heritage areas. However, such an assertion 
is highly dubious, because if it were true, it may mark the 
first time in the history of Federal grantmaking, where the 
funding agency refused to get intimately involved in the 
program it was funding. It is just not realistic.
    This trend was borne out when the Augusta Canal National 
Heritage Area in Georgia was in its developmental stages in 
1994. The National Park Service refused to accept the 
management plan put forth by the Augusta Canal Authority until 
zoning regulations were made stricter.
    Private property rights advocates are also worried that 
National Heritage Areas will effectively become part of the 
National Parks program. Despite attempts by proponents to 
assuage these fears, unfortunately these fears are well 
founded.
    The Rivers of Steel National Heritage Area, located in 
southwestern Pennsylvania, boldly states on its Web site, 
``Rivers of Steel is spearheading a drive to create a national 
park on 38 acres of original mill site. Bills have been 
introduced before the U.S. Congress to make this urban national 
park a reality.''
    Thus, here is an example of a National Heritage Area, 
funded and guided by the National Park Service, taking the 
initiative in lobbying Congress for land acquisition and the 
creation of yet another national park. It hardly appears that 
heritage areas and national parks are strictly dichotomous. It 
is also worthwhile to note that this is happening at a time 
when funding for Federal land acquisition is becoming more and 
more scarce.
    If the Heritage Areas program is allowed to proliferate, 
experience shows that it will become not only a funding 
albatross, as more and more interest groups gather around the 
Federal trough, but also a program that quashes property rights 
and local economies through restrictive Federal zoning 
practices.
    The real beneficiaries of a National Heritage Areas program 
are conservation groups, preservation societies, land trusts, 
and the National Park Service; essentially, organizations that 
are in constant pursuit of Federal dollars, land acquisition, 
and restrictions on development.
    Again, Mr. Chairman, thank you for inviting me to testify 
on this very important issue. And I will be happy to answer any 
questions you may have.
    Senator Thomas. Okay. Thank you.
    Well, thanks to all of you. I appreciate it very much.
    Ms. Higgins, how many heritage areas are there that the 
National Trust is involved in?
    Ms. Higgins. We have--by our calculation, there are 18 of 
the 23 where we have an active role, particularly through our 
Main Street program. There are 118 Main Street programs that we 
have an affiliation with that are a part of these heritage 
areas. And Main Street, as you may know, is a program that is 
run out of the National Trust. We work with local communities 
all across the country to revitalize their downtown commercial 
districts using historic preservation and working with business 
owners to help them attract new businesses to them.
    Senator Thomas. I understand the economics and attracting 
new business. What does that have to do with heritage areas?
    Ms. Higgins. As I mentioned in my remarks, the people who 
are looking to travel want to come to places that are unique 
and----
    Senator Thomas. I understand that, but then if you are 
talking about economic development, that does not seem like it 
fits necessarily into heritage.
    Ms. Higgins. I think one of the byproducts of a heritage 
area is defining an area that has a unique characteristic in 
it, and----
    Senator Thomas. I think that in some cases, do you not, 
that it is more than a byproduct? Do you not think that is the 
real drive for doing it in the first place?
    Ms. Higgins. It may be. I mean, I think that when people--
communities that have--for example, the Rivers of Steel in 
western Pennsylvania, communities that have lost the steel 
industry, the question is: What do they become now? And one of 
the strategies is to look at: What are the assets there? What 
makes them unique? Is that something where they can come 
together and think about how to take those assets, the physical 
assets, the buildings, mills, other things that are there, and 
use them in another way.
    Senator Thomas. Do you not suppose that there are more than 
40 little towns in the United States that could use some Main 
Street activity?
    Ms. Higgins. Main Street, from the Trust perspective, is 
engaged in over 1,300 communities.
    Senator Thomas. But whose responsibility is that, the 
Federal Government's?
    Ms. Higgins. Well, not uniquely, no. I mean, we are a 
national nonprofit, and Main Street----
    Senator Thomas. I understand, but you are looking for money 
from the Federal Government. That is why you have a heritage 
area.
    Ms. Higgins. We--the Trust is not.
    Senator Thomas. Well, somebody is. I mean, I do not say 
that is bad, but it seems like it is a little difficult when we 
go through this thing--and Mr. Sachse, you may want to comment 
on that--if it is economic development, is not that something 
different than heritage?
    Mr. Sachse. No, the two are connected very, very strongly. 
I think heritage areas deal with the belief and philosophy that 
if there is an economic alternative and if it is driven by 
private citizens or residents of the area, and they have a good 
viable use, they will act to preserve their particular 
resources.
    Senator Thomas. Absolutely. But why does it need to be 
called a National Heritage Area?
    Mr. Sachse. Well, it is designated a National Heritage Area 
because those resources in that area are significant----
    Senator Thomas. Oh, well----
    Mr. Sachse [continuing]. The level of significance to be a 
National Heritage Area.
    Senator Thomas. Well, then, we have to define it, do we 
not?
    Mr. Sachse. Yes. I agree with that, yes.
    Senator Thomas. You indicated that you had $1 out of every 
$6, was it not, that you said?
    Mr. Sachse. To every $10 that we receive----
    Senator Thomas. So actually, the total Federal dollars is 
$1 out of $2.
    Mr. Sachse. Our total Federal is not quite that high, but 
it is probably $1 out of every $3.
    Senator Thomas. You spend $42 million and the Federal 
spends $20 million, according to my numbers.
    Mr. Sachse. That----
    Senator Thomas. That is all right, but it is more than what 
you said, and that is a significant contribution to it, which 
is fine. But there are a lot of little towns in other places 
that have businesses that have gone down. I guess what troubles 
me a little is that if that is going to be the criteria, why, I 
can sign up a few in Wyoming, quite a few probably in Montana.
    Mr. Sachse. One of the funding programs we have received, 
in fact our largest funding program, has been the ISTEA 
Enhancement Program which was not available at the time the 
Delaware and Lehigh was created. We just happened to have the 
resource that is--you know, our Heritage Area is based around 
this, around the historic transportation system. And we 
probably have one of the most competitive projects in the State 
of Pennsylvania. We have actually leveraged about $14.5 million 
from the TEA program over the years to support what we have 
been doing along this historic transportation system.
    Senator Thomas. What is the role of the Park Service in 
your heritage area?
    Mr. Sachse. The Park Service provides oversight as was 
stated earlier. At the very beginning, we were one of the 
experiments, and the Park Service helped us put together our 
management plan. They have a seat on the commission so they can 
attend our meetings. They do not always attend our meetings.
    Senator Thomas. What do you mean by oversight?
    Mr. Sachse. They have oversight on our--we work with them 
on administration of our budget and the appropriation process. 
When I say the appropriation process----
    Senator Thomas. Mr. Secretary, you said once that is done, 
that you do not have any responsibility for the management.
    Mr. Hoffman. Not the management of the heritage area--I am 
sorry. Not the management of the heritage area itself. We do 
have the responsibility to ensure that the Federal dollars are 
spent for the purposes for which they were applied.
    Senator Thomas. How long does that go on?
    Mr. Hoffman. For as long as they are spending Federal 
dollars, they are going to do it subject to Federal policies 
and regulations.
    Senator Thomas. So when the 15 years is over, you are out 
of it, is that right?
    Mr. Hoffman. Yes.
    Senator Thomas. All right. How long have you had this 
going?
    Mr. Sachse. How long have we been designated? We are 
probably on our 15th year now. When we were designated in 1988, 
because we were one of these experimental areas, we did not 
have a feasibility plan and a management plan at that point in 
time. It actually took us 5 years to complete the management 
plan and have the management plan completed.
    So we used up basically half of our first sort of 10-year 
designation in doing the planning process before it reached the 
Secretary of the Interior's desk. In 1998, we asked for a 10-
year extension, and was granted such an extension to bring us 
in effect to a 15-year management--or implementation period.
    Senator Thomas. I see. Ms. Higgins, so you then--the 
National Trust does activities that are not national heritage 
activities.
    Ms. Higgins. Absolutely. We work with communities all 
across the country including, Senator, in your State. But our 
services are also called on to work with heritage areas.
    As I mentioned, through our Main Street program, we have a 
couple of--this very tiny staff in Denver who have expertise in 
the tourism area, working with communities who want to attract 
visitors because of their historic resources. We have worked 
with heritage areas on attracting visitors. We have one person 
in our national office who works with communities particularly 
in rural areas, on issues like scenic byways and, you know, 
historic agricultural resources. And those services are 
available to heritage areas or anybody who, yes, wants to work 
with us.
    Senator Thomas. If you were assigned to do something about 
a criteria or a standard for establishing heritage areas, what 
do you think would be most important?
    Ms. Higgins. Well, I think this issue of national 
significance. I mean, I think that is an important question 
because there is a concern, I know, in many quarters about 
areas being designated, whether it is through a political 
process or some other way, where the site really is not that 
significant, but they develop political support or local 
support.
    You know, there are criteria that are established through 
the National Historic Preservation Act about historic sites, 
landmark. I am not suggesting that those are exactly the right 
criteria, but there is a pretty long established history of 
things that rise to the level of national significance.
    Senator Thomas. Not on heritage areas, however.
    Ms. Higgins. To my knowledge, they have not been applied to 
heritage areas. There are certainly sites within heritage areas 
that would be landmark sites that would meet the criteria of 
historic significance.
    Senator Thomas. Sometimes. And that is a problem, and it is 
difficult to determine----
    Ms. Higgins. Senator, the one thing I think that I find 
encouraging about this or really that makes it unique is that 
it really is a local initiative. And so many of the communities 
where these things have really taken off are areas where they 
really did not--the old industries die. They have the rust belt 
communities and----
    Senator Thomas. I have to tell you just from experience--
and I do not mean it unkindly--but when you talk about local 
initiatives, the first thing you think of is ``Where are we 
going to get the money? If we can get it as a heritage thing, 
we will get $10 million.''
    So local initiative is great, but one of the first things 
you look for is dollars, right?
    Ms. Higgins. That is always a factor.
    Senator Thomas. Sure, and properly so. All we are saying, I 
think, is that there needs to be some criteria so that we do 
not end up with--I mean, you have got 40 Main Streets 
somewhere. There are lots of towns that would like to have a 
Main Street thing.
    Ms. Higgins. I would tell you that the Main Street program 
has very strict criteria about what is involved in becoming a 
Main Street program. They have a very--some people would think 
too strict.
    I think the concern is: Can you develop national criteria 
that are standards, but that you also--or that are also 
flexible enough to recognize the unique characteristics of 
local areas and regions?
    Senator Thomas. All right. Mr. Knight, as you prepared your 
comments, do you know of particular property owners who have 
been impacted by the lands within heritage areas?
    Mr. Knight. Yes, Senator, I do. One specific example that 
comes to mind: I traveled to the National Coal Heritage Area in 
West Virginia last spring, and visited with the citizen's group 
who is essentially a group of property owners who stood to lose 
their homes along the New River because the West Virginia 
Department of Highways and the Park Service were planning on 
building a parkway along the river that--and I guess by 
definition of a parkway, it included certain view-shed 
requirements. And the notion was that the parkway was going to 
funnel tourists and tourism dollars.
    Senator Thomas. Is that a heritage area?
    Mr. Knight. Yes, it is.
    Senator Thomas. I see. Okay.
    Mr. Sachse, what does your heritage area impact? I think 
you indicated it does not impact land use.
    Mr. Sachse. No, it does not. We have no authority over land 
use and no control over land use. And in Pennsylvania, land use 
is made at the lowest level, which is 2,600 local 
municipalities.
    We have an impact on, you know, activities related to 
preservation and of this historic transportation system. And 
when I say ``an impact,'' we provide assistance to help the 
communities improve the trail. We provide assistance to 
communities on economic developmental issues. Our Main Street 
program is going to have impact on the market towns area.
    We have had, as I mentioned, over 100 projects that we have 
given assistance to local groups, and they have been projects 
that have been requested of us by municipalities. They all fall 
under the management and----
    Senator Thomas. These are all historic items?
    Mr. Sachse. No. Some are----
    Senator Thomas. They are economic development, right?
    Mr. Sachse. No, they--some were historic preservation. Some 
would be conservation. Some would be economic development. 
There were a lot of interpretive projects that we were involved 
with. There really is a whole host of projects, or types of 
projects we have been involved with.
    I would say, though, that almost every one of the projects 
when I have mentioned those areas, has hit a couple of those 
areas. You know, a lot of the economic developments are also 
preservation ones or conservation ones, or something like that. 
So they really hit several categories.
    Senator Thomas. Yes. Mr. Knight, I would guess that 
maintenance of historic areas and historic things are here to 
stay. What recommendation would you have as that is done for 
protecting private property rights?
    Mr. Knight. True, it is here to stay. And we do have 
several recommendations to protect private property rights. One 
of the first would be to require full notification to all 
landowners whose property would fall within the boundaries of a 
heritage area.
    This is something that--I know that this is not a Senate 
issue, but there was a heritage areas bill in the House last 
year. And when this amendment was brought up, it was shot down 
by the committee working on the bill, and for unknown reasons. 
But full notification would be something that we would want 
landowners to have.
    We would also want landowners within a heritage area to 
have to opt in to participating in a heritage area and all that 
comes along with it. Now, let me be clear about that: Not a 
letter that shows up on a door saying, ``Hey, this is a 
heritage area and you are in it unless you send this piece of 
paper back to us saying you do not want to be into it.'' We do 
not think that opt-out would be a very good option. They would 
have to opt in.
    And we also would--if at some point down the road, a 
heritage area was targeted to become a National Park, or an 
Urban National Park like they are looking at in the Rivers 
Heritage Area, we would submit that the Park Service would have 
to redo the entire process over again and evaluate, go through 
the normal evaluation procedures for establishing a national 
park rather than taking a heritage area and merely converting 
it over to a national park.
    Senator Thomas. Okay. Well, obviously areas that are hoped 
to save--here is one for instance, the National Coal Heritage 
Area. It is in their management plan. ``Southern West Virginia 
counties, like rural areas across the United States, lack land 
use controls completely or else have controls that are weak or 
ineffective. Visual landscape that results is cluttered and 
frequently unattractive.'' That is in their management plan. 
That does not say what they are going to do, but obviously it 
is an issue, and one that we could go on.
    Well, listen, I do not want to keep you much longer. Let me 
go down and ask very shortly--starting with you, Mr. 
Secretary--what would be your priority of what we might do to 
help more clearly define and give strength to this program?
    Mr. Hoffman. Mr. Chairman, I think a good set of criteria 
to help us determine what indeed is ``national significance'' 
is important. I do believe that heritage tourism is real, and 
the economic benefits are measurable. But your question, ``Does 
that mean that every community needs to be a part of a heritage 
area,'' is a very good question. And that is where we have a 
difficult time drawing the line.
    Senator Thomas. Yes. It is not easy.
    Mr. Hoffman. I also would suggest, though, that the opt-in 
recommendation that Mr. Knight recommends is a show stopper. We 
have people in every county in Wyoming who do not pay their 
property taxes every year which is the ultimate protection of 
their property rights, which is to pay their property taxes so 
the county does not come take their land from them. So I do not 
know how we could ever expect 100 percent of property owners in 
a heritage area to opt into a program.
    Having said that, we believe it is very important that 
there be significant public involvement and significant public 
opportunity for people to comment about how they feel a 
National Heritage Area.
    We have said no to designations in the past. There are 
heritage area organizations that are struggling along who have 
run into the brick wall of local opposition, and they are not 
going anywhere. And that is at it should be. If a local 
community as a whole thinks it is a good thing, then I think 
the democratic process prevails there and we should consider 
what the community, taken as a whole, wants to have done in 
their communities. But significant public support should 
certainly be part of it, but an opt-in program, I think, is a 
show stopper.
    Senator Thomas. Okay. Thank you. I think one of the things 
we ought to ensure, too, is that there is a study, a bona fide 
study as is the case with the parks.
    Ms. Higgins, what would be your base recommendation to make 
this thing work better?
    Ms. Higgins. Well, I think, or my understanding is that the 
criteria or the process that the Park Service now uses for 
designation of a park which is the study and evaluation and 
really working it through, is a place to start. We may want to 
make some adjustments in that, but there is a process that the 
Park Service follows before a park is actually recommended to 
the Congress to be funded. And I think that that criteria might 
be looked at as a way to----
    Senator Thomas. Could be. I think it would have to be a 
made a little bit more simple. As a matter of fact, the Park 
Service is substantially behind in doing the studies that have 
already been approved here. I think it is 15 of them--I cannot 
remember exactly--are still to be done because they are rather 
difficult. These could be done more easily perhaps, but some of 
the criteria might be the same.
    Okay. Mr. Sachse.
    Mr. Sachse. Well, I would agree that there should be a 
process of determining criteria and reaching a certain level of 
national significance. I am not really sure what that level is.
    Senator Thomas. I know. That is hard.
    Mr. Sachse. That is always the fuzzy part.
    Senator Thomas. Yes.
    Mr. Sachse. The second thing is that I would agree that 
before there is a designation, there should be some type of 
public process or some type of study, feasibility study to deal 
with issues that make sure--that brings a consensus supporting 
the project forward.
    Senator Thomas. Yes.
    Mr. Sachse. And the other thing, I would just like to make 
a comment about the Delaware and Lehigh, for instance. I think 
a lot of the heritage areas are like this. We have a lot of 
local interest and support, but the scale of the project that 
we are doing is considerably beyond the level and scale of the 
project that could be done under normal circumstances in 
Pennsylvania.
    I think that is part of the issue, too, is that we need 
that sort of recognition to help move this scale of project 
forward. Dealing with five counties where you have a hundred 
local governments dealing with, you know, decisionmaking is not 
an easy process.
    Senator Thomas. Pennsylvania, I think, is kind of leading 
the pack here, are they not, on heritage areas?
    Mr. Sachse. Yes. And probably the reason why is because the 
State has a rather strong State Heritage Parks program that has 
taken--there are 11 State Heritage Parks in Pennsylvania. And 
it has taken all of those State Heritage Parks through a public 
planning process. The Secretary made a comment that areas come 
with the plan. Many of those, you know, areas in Pennsylvania 
have gone through that process.
    Senator Thomas. Do they work well?
    Mr. Sachse. The Pennsylvania process works well, yes.
    Senator Thomas. Per your statement?
    Mr. Sachse. Yes.
    Senator Thomas. Sometimes it is a little hard to explain 
when we have the backlog in National Parks that everyone 
complains about, to be going on into new areas that could 
possibly be done by the States.
    Mr. Sachse. Well, I would venture to say that most National 
Heritage Areas, we are providing assistance of National Park 
and helping to protect and preserve resources beyond what their 
capacity would be. And it is a locally driven process.
    Senator Thomas. All right. Mr. Knight, what would be your 
suggestion?
    Mr. Knight. Well, if I could, Senator, just touch upon the 
issue of establishing legislation at the Federal level for 
National Heritage Areas: Proponents of this sort of legislation 
and criteria and process whereby the areas are established, are 
billing it as a process whereby we can kick out the bad, the 
unqualified areas, and let in the good and fund those. We 
strongly disagree with that. We think that by establishing a 
process, you essentially grease the skids of the program, 
whereby you will see an exponential growth in the number of 
interest groups and local communities, and local groups that 
are lining up at the door for Federal dollars.
    If I could touch on the opt-in program really quickly, I 
just want to correct something, with all due respect to Mr. 
Hoffman. I never mentioned anything about 100 percent of 
landowners within a heritage area having to opt in before that 
heritage area went forth. I mentioned just any landowner having 
to opt in. If every single landowner in that heritage area 
wants to be a part of it and opts in except for one, then you 
should leave that one landowner out of it and leave him alone. 
I did not mention anything about--I just wanted to make that 
clear.
    Senator Thomas. In-holdings--so in something like this, so 
called in-holdings would not be the same as they would be in a 
park.
    Mr. Knight. Possibly.
    Mr. Hoffman. Well, not at all since there is no land 
ownership associated with a National Heritage Area. Opt-in, 
opt-out; it makes no difference. The benefits either come to 
you or not, and whatever owner's restrictions come, come at the 
hands of the local planning and zoning board which you can not 
opt in or opt out of.
    Senator Thomas. I was going to say, I think those decisions 
generally with respect to zoning or whatever, would be local 
decisions, not Federal decisions.
    Mr. Knight. Ostensibly, yes.
    Senator Thomas. I understand your point.
    Well, we would like to work with you, and I think there is 
a good reason to have these heritage things, and to save 
things, and so on. But we do need a criteria, I think, so that, 
number one, there is a limit on them so we kind of equally 
divide the responsibility between local and Federal Government, 
and so that we can do our main job which is Park Service, and 
we need to do that.
    So I thank all of you for coming.
    If anyone has any other questions or so one, we will have a 
couple of days to do all of that. Thank you all for being here. 
We appreciate it very much.
    [Whereupon, at 3:38 p.m., the hearing was adjourned.]

    [Subsequent to the hearing, the following was received for 
the record:]
                  Freedom's Way Heritage Association, Inc.,
                                        Devens, MA, March 13, 2002.
Senator Craig Thomas,
Chairman, Subcommittee on National Parks of the Energy and Natural 
        Resources Committee, Dirksen Senate Office Building, 
        Washington, DC.

Re: Testimony for oversight hearing on the designation and management 
of National Heritage Areas

    Dear Senator Thomas: The Freedoms Way Heritage Association is 
pleased to provide written testimony for this hearing. We know that you 
will be looking at several key Heritage Area issues. As a Heritage Area 
whose designation Bill, S. 577, is filed in this session of Congress, 
we believe our views on criteria will be particularly relevant. We 
believe that broad based national criteria and procedures are important 
requirements for effective heritage areas, and that the National Park 
Service criteria are fair and appropriate.
    Since 1994, we have worked very hard in New Hampshire and 
Massachusetts to meet the National Park Service (NPS) criteria for 
National Heritage Area designation. We have completed the four NPS 
critical steps and our Feasibility Study supports how we meet the ten 
NPS criteria components. In order to demonstrate to you how a 
prospective Heritage Area goes about assuring that these criteria are 
met, we are attaching our Study and other documentation. We have also 
included a brief timeline showing our progress to date. At the 
Subcommittee hearing of June 18, 2002 the NPS testified that we do, in 
fact, meet their criteria. We hope that you will find our answers 
helpful in your oversight deliberations.
    Since the terrorists attack of 9/11 there has been tremendous 
outpouring of American's interest in their roots of democracy and 
freedom. Our Heritage Area is helping to meet these current needs and 
will help to educate our children who will be future citizens. Their 
understanding of our fight for freedom is important. As Theodore 
Roosevelt said:

          ``Let us in our turn with equal courage, equal hardihood and 
        manliness, carry on the task that our forefathers have 
        entrusted to our hands; and let us resolve that we shall leave 
        to our children and our children's children an even mightier 
        heritage than we received in our time.''

    Thank you for your efforts. We hope to be an important contributor 
to the discussion about Heritage Area monitoring or measuring 
procedures. You will have our full support.
            Sincerely,
                                               Marge Darby,
                                                         President.
 Chronology of Key Freedom's Way Heritage Association, Inc. Activities
1994  Freedom's Way Heritage Association, Inc. files incorporation 
        papers.
1995  Opened the Freedom's Way office, space, furniture and first 
        computer provided by MassDevelopment.
1996  Received grant under auspices of Massachusetts Department of 
        Environmental Management to conduct feasibility study.
1997  Feasibility Study begins with tour of area to begin identifying 
        sites. March, April, June and July four public participation 
        forums held to discuss alternative plans and develop themes. 
        Four themes were chosen.
1998  Congressman Olver proposes submitting legislation and charges 
        FWHA with securing letters of support.
          Freedom's Way receives the Nashoba Valley Chamber of Commerce 
        Outstanding Organization Award in recognition of ``outstanding 
        contribution [to the Nashoba Valley Communities] in service and 
        leadership.''
1999  Massachusetts Office of Travel and Tourism with matching funds 
        from MassDevelopment support additional work to publish 
        Freedom's Way Heritage Area Map. During this process four 
        themes are reduced to three. Met with regional Park Service 
        representatives to introduce to new map work. Minute Man 
        National Park Superintendent mentions interest in Freedom's Way 
        establishing a headquarters within the park.
1999  November National Park Service representatives held 
        reconnaissance tour of Freedom's Way.
2000  December, the Addendum to Feasibility Study Completed with input 
        from major partners: Chamber of Commerce, MassDevelopment, 
        Museum of Our National Heritage and Fruitlands Museum. 
        Circulated addendum to ensure broad support.
2001  January officers of Freedom's Way travel to Philadelphia to meet 
        regional Park Service Representatives.
          February, Freedom's Way National Heritage Area legislation 
        filed by Congressman John W. Olver (H.R. 1027) with Bass, 
        McGovern, Markey, Meehan, Tierney and Sununu as co-sponsors.
          State Senator Pam Resor and State Representatives Hall and 
        Walrath file appropriation bill for no less than $250,000 to 
        match federal appropriation of $1 million.
          July 13 National Park Service representatives perform a site 
        tour of Freedom's Way.
          Held additional public participation meetings in Nashua and 
        Brookline, New Hampshire to gather feedback from those 
        communities on Freedom's Way.
2002  Freedom's Way officials brief Washington Congressional Aides, and 
        House Resource Committee staffer on Freedom's Way progress in 
        meeting NPS criteria.
          Boston Globe Regional Edition publishes front page story on 
        Freedom's Way.
          Senators Kerry, Gregg, and Kennedy file Freedom's Way 
        National Heritage Area Act Bill, S. 1925
          Officers of Freedom's Way received ``Green Seal'' award from 
        the Secretary Robert Durand of the Massachusetts Executive 
        Office of Environmental Affairs for support for regional 
        planning initiative.
          Received support from Governors of Massachusetts and New 
        Hampshire for designation of a Freedom's Way National Heritage 
        Area.
          Freedom's Way officials testify at hearings to the Senate 
        Energy and Natural Resources, Parks Subcommittee.
          National Park Service testifies that Freedom's Way meets the 
        Service's stated goals.
          Massachusetts State Ways and Means issues a Prior Account 
        Continuance on the $250,000 appropriation to match federal 
        appropriation.
          U.S. Senate subcommittee marks up S. 1925 and send it to full 
        Senate for consideration where it is bundled and becomes part 
        of H.R. 695 S.
          Freedom's Way Heritage Area Act passed in Senate by Unanimous 
        Consent. House unable to take up HR695AES before adjourning 
        sine die.
          Boston-based Channel 5 Chronicle Program highlights Freedom's 
        Way.
2003  February, Government Affairs committee confers with Mayor 
        Streeter, Nashua, and New Hampshire Congressional delegation 
        representatives.
          Feb. 11-13--Government Affairs committee attends the DC 
        conference called by the Alliance Class of 2003 to discuss 
        Heritage development.
          Feb. 11-13--Brief Congressmen, staffers, and aides on current 
        Freedom's Way heritage development activities.
          Feb. 26--Stakeholders Meeting.
          March, H.R. 1069 filed by Olver, Bass, Markey, McGovern, 
        Meehan, and Tierney. S. 577 filed by Kerry, Gregg, Kennedy and 
        Sununu.
     Freedom's Way Heritage Area Feasibility Study Addendum Summary
March, 2003

Prepared by:
Freedom's Way Heritage Association, 43 Buena Vista Street Devens, MA.

    Freedom's Way has examined the National Park Service criteria and 
we believe they are well thought out and are directly related to the 
purpose of what basic standards should exist in all National Heritage 
Areas. We have strived to exceed these criteria, and we have 
continually evaluated Freedom's Way Heritage Area as a potential 
National Heritage Area against those criteria. Not only do we believe 
that we have ample documentation that we do meet them, the Department 
of the Interior Statement at the Senate Parks Subcommittee hearings 
last June confirmed this.
    The concept of the Freedom's Way Heritage Area has been well 
defined by a feasibility study, a technical document, an addendum, a 
map, and the continuing refinement of the themes through additional, 
ongoing stakeholder meetings and newsletters.
    Priorities speak to linkages through education and preservation of 
nationally significant resources. The focus of the entire effort will 
be the conservation of a nationally significant area. While 
preservation efforts will include bricks and mortar requests, paint 
eventually deteriorates: education is forever. One of our major goals 
is an educational effort to accomplish the following:

  <bullet> To elevate the importance of nationally significant regional 
        resources through a coordinated educational and preservation 
        effort;
  <bullet> To mobilize communities by assisting their public and 
        private institutions to build partnerships to focus on 
        furthering stewardship of the natural, cultural and historical 
        connections of the region;
  <bullet> To work with existing interpretive sites that have 
        educational and interpretive programs in place to engage 
        citizens in the understanding and celebration of their unique 
        heritage using the Freedom's Way themes;
  <bullet> To expand current National Park exposure through thematic 
        linkages;
  <bullet> To use existing facilities and sites without acquiring new 
        land;

    An objective is to use visitor sites that are already locally, or 
nationally recognized as interpretive centers. The goals of these 
institutions are: increased exposure through the national designation; 
the establishment of linkages through theme-related efforts; the 
creation of partnerships to further define each institution's focus to 
eliminate duplication and to tell a richer story through the expansion 
possibilities of shared themes.
    Protecting precious resources requires developing a future 
constituency by providing theme-related educational and interpretive 
materials and activities.
    Success will evolve through the recognition that a National 
Heritage Area designation will bring, standing and local pride, and 
encourage efforts toward further protection and preservation and 
increased local investment.
    Each of the participating institutions already has interpretive 
programs relating to the Freedom's Way themes but they lack the 
cohesiveness necessary to tell the entire story. Local site managers 
recognize the potential of cooperative efforts connected to one over 
all endeavor that has been given national recognition.
    The Minute Man National Park will play an important role in 
connecting the Freedom's Way themes. There are four main cores or areas 
of focus of cultural heritage sites. Each one has the combined 
resources of a solid open space component adjacent to or proximate to, 
a cultural/heritage visitor center. An example is the core of cultural 
heritage sites that are connected to the theme-related open space and 
recreational areas at Minute Man National Park and in the Concord/
Lexington/Lincoln area. This combination is repeated in three other 
areas: the central area that includes Fruitlands and the Oxbow NWR, the 
western area that includes Wachusett Mountain and the Gardner Heritage 
State Park and the northern area including Nashua and Beaver Brook in 
New Hampshire.
    The Freedom's Way Heritage Area sites represent the possibility of 
partnerships between all levels of government, especially local to 
local, as well as public and private non-profit organizations. Open 
space examples are: Minute Man National Park, U.S. Fish and Wildlife's 
Great Meadows and Oxbow Wildlife Complexes, Massachusetts State Parks, 
Massachusetts Audubon Society, Beaver Brook Association, and local 
Conservation Commission lands. Cultural heritage site examples are: 
Minute Man National Park, Concord Museum, Great Meadows Visitor Center, 
Massachusetts Audubon's Drumlin Farm, Fruitlands Museum, the National 
Heritage Museum and local historical society facilities.
    Many other resources offer potential for recognition; some local 
resources with national importance are unrecognized. The inventory, at 
this point, is a work in progress. Designation will help to refine 
theme development.
                          four critical steps

1. Completion of a Suitability/Feasibility Study
    The Freedom's Way suitability/feasibility study (1997) was 
completed under the supervision of the Massachusetts Department of 
Environmental Management and conducted by ICON architecture, Inc.
    The study resulted in two main documents:

          I. The Summary Report (and Summary Report brochure) and,
          II. The Technical Report, an initial data base of natural and 
        cultural resources.

    The study included hundreds of participants, public meetings and 
four monthly newsletters.
    Freedom's Way has continued the public participation process 
through stakeholder meetings, and newsletters to refine the results of 
the feasibility study.
    This refinement process has already led to a simplification of 
themes from four to three: Rediscovering the Native Landscape, 
Inventing the New England Landscape, and Shaping the Landscape of 
Democracy.
    A descriptive map/brochure about Freedom's Way has been developed 
and is being distributed throughout the region.
    As National Park Service Criteria have changed and matured, we 
completed an Addendum to our Feasibility Study to ensure all of the 
present criteria are fully addressed.
2. Public Involvement in the Suitability/Feasibility Study
    The public participation during the feasibility study included four 
area-wide public meetings, which were well attended.
    Participants were invited from the general public through published 
announcements in local papers and through a committee of liaison or 
contact people representing each town.
    A steering committee representing a wide range of interests oversaw 
the study. The representatives were: Nancy Nelson, Superintendent of 
Minute Man National Park; James Baecker, Project Director, Mass 
Department of Environmental Management; Mildred Chandler, Marge Darby, 
Robert Farwell, Freedom's Way; Judith McDonough, Commissioner of 
Massachusetts Historic Commission; Judith Alland, Metropolitan Area 
Planning Commission/Minuteman Advisory Group; George Krusen III, Minute 
Man Historical Societies; George Kahale, Montachusett Regional Planning 
Commission; Thomas Leavitt, Museum of Our National Heritage; Robert 
Levite, Nashua River Watershed Association; Deborah LaPointe, Nashoba 
Valley Chamber of Commerce; Elizabeth Tennessee, Nipmuc/African 
American History; Janet Kennedy, U.S. Fish and Wildlife.
    Public participation has continued through a series of stakeholder 
meetings, prospective partner breakfasts, a web site, and newsletters. 
Since the conclusion of the feasibility study Freedom's Way Heritage 
Association has given more than 25 public presentations and mailed out 
nine newsletter/updates.
3. Demonstration of Widespread Public Support Among Heritage Area 
        Residents for the Proposed Legislation
  <bullet> A current mailing list of 1500 receives important notices 
        and newsletters
  <bullet> Board representation of 22 organizations
  <bullet> Forty town liaisons
  <bullet> Commitments from Mayors, Town Selectmen, local Commissions 
        and Boards
  <bullet> Membership in Freedom's Way includes towns, museums, 
        cultural and educational institutions
  <bullet> Letters of support numbering more than a hundred
4. Commitment to the Proposal From the Appropriate Players Which May 
        Include Governments, Industry, and Private, Non-Profit 
        Organizations, in Addition to the Local Citizenry
    FWHA has on file letters of support from legislators, mayors, 
selectmen, town committees and boards, over 50 cultural institutions, 
six Chambers of Commerce, 24 businesses, 16 legislators, 67 municipal 
boards, and can show an expanding membership.
    The support from units of government includes: federal and state 
legislators; mayors and local town executives; MassDevelopment Finance 
Agency; Massachusetts Historical Commission, Massachusetts Historical 
Society, Massachusetts Office of Travel and Tourism, Massachusetts 
Office of Environmental Management, and Dept. of Environmental 
Protection. The towns differ in their approach to membership.
    Private non-profits such as: Massachusetts Audubon Society, Nashua 
River Watershed Association, Museum of Our National Heritage, Concord 
Museum, Fitchburg Art Museum, Fitchburg Historical Society, Lunenburg 
Historical Society, Fruitlands Museum, Cyrus Dallin Museum, the Beaver 
Brook Association and many others.
                    components of feasibility study
1. The Area HAS an Assemblage of Natural, Historic, and Cultural 
        Resources That Together Represent Distinctive Aspects of 
        American Heritage Worthy of Recognition
  <bullet> The assemblage is evident in the Feasibility Study 
        conclusions.
  <bullet> Additional data has been compiled since the study.
  <bullet> The proposal fills a need that is not currently being met by 
        any other regional, state or federal agency. John Ott, Director 
        of the Museum of Our National Heritage states clearly that, 
        ``No other organization is doing what Freedom's Way has plans 
        to do.'' There are no entities available to take on the task of 
        providing a regional network through a national heritage 
        designation to enhance regional educational efforts.
2. Reflects Traditions, Customs, Beliefs, and Folklife That Are a 
        Valuable Part of the National Story
    Evidence and examples of early traditions, customs, beliefs and 
folklife still exist within the region.

  <bullet> Evidence of Native American life still. Example: Eliot's 
        Praying Village of Nashoba, and archaeological digs.
  <bullet> Many towns were founded 100 years before the Revolutionary 
        War.
  <bullet> Village folklife focused around common property and 
        interdependence as a process for town development.
  <bullet> A citizenry accustomed to self-governance and independence 
        is linked to Freedom. Town Meeting form of government is still 
        actively practiced in its purest form.
  <bullet> Shakers, Transcendentalists, Millerites, African American, 
        Native American, early tri-racial and other ethnic communities 
        experimented in ways of living.

    Examples of the continuation of the earliest national efforts at 
conservation as well as the evolution of Democracy offer a unique 
educational opportunity to teach how old ideas can still stimulate new 
actions.
3. Provides Outstanding Opportunities
    The three themes: Rediscovering the Native Landscape, Inventing the 
New England Landscape, Shaping the Landscape of Democracy will provide 
outstanding opportunities to conserve natural, cultural, historic, and/
or scenic features.
    The rediscovered landscape combines the concept of preserving the 
natural and native landscape with the conservation movement. It is 
still possible to walk from the town of Westford to Concord through a 
wild and natural landscape. Thoreau's ``Walk to Wachusett'' can still 
be accomplished with only a few present day interruptions.
    By developing a network of educational opportunities through 
thematic connections, future stewards of the land will emerge.
    Conservation Trusts, Municipal Conservation Commissions, U.S. Fish 
and Wildlife, and local conservation commission land managers offer 
outdoor educational opportunities.
    Cultural and historic sites offer unique opportunities to teach 
conservation and preservation: area museums, National Historic 
Landscapes, National Historic sites, Shaker villages, town centers, 
churches, and town commons are only a few.
    The Massachusetts Community Preservation Act shows a strong desire 
on the part of the state to preserve the historical and political 
makeup of communities, e.g.: rural flavor, commons and the town meeting 
form of government. Through the implementation of Executive Order 418, 
the Commonwealth is providing each town with $30,000 for ``intralocal'' 
community development planning. Nothing exists to help the communities 
pull together as a region. The Freedom's Way linkages will help them to 
recognize the value of a regional preservation effort.
4. Provides Outstanding Recreational and Educational Opportunities
    The map shows there are existing recreational and educational 
opportunities. By thematic connections the opportunity for enhancing 
use of these sites is exponential.
    Massachusetts sites begin 30 minutes from Boston, and the New 
Hampshire sites are one hour away. This indicates the strong potential 
for use by major city residents and foreign visitors.
    The map/brochure shows how the sites can be integrated as part of 
the interpretation of the themes. There is at least one major 
recreational area paired with each cultural/heritage site.
5. The Resources Important to the Identified Themes of the Area Are 
        Capable of Supporting Interpretation
    The themes reinforce each other and provide a method for viewing 
the region to maintain integrity of place.
    The proposed Interpretive Centers are stable, substantial, and well 
organized. Such centers already in existence give ample opportunity for 
establishing and enhancing mutually beneficial relationships.
    This is an ideal place to teach democracy. The resources for such 
an effort are strong: museums, open land, interpretive centers.
    Illustrating the ideas of freedom, resources show, for example, how 
democracy predated the Revolutionary War; the Revolutionary War and its 
consequences. The native landscape, geological formations that still 
remain undiminished by development, resources that show the birth and 
development of the conservation movement; attractive village centers 
once required by law; the farmlands and mills reveal the evolution of 
land use. Altogether, these can be used to maintain a setting, the 
integrity of place.
    Designation will bring the cohesive force necessary to accomplish 
the work.
6. A Broad Range of Interest Groups Were Involved in the Planning
    Over the years, Freedom's Way Heritage Association has been 
bringing together representatives of the public and private sector.
    The Freedom's Way Board is comprised of representatives of the 
following entities: Chambers of Commerce, regional environmental 
organizations, area museums, two regional planning commissions, local 
Select boards, mayoral appointees, city planners, town administrators, 
newspaper publishers, business owner, Native Americans and African 
Americans, Massachusetts Historical Society, local historians, federal 
land managers, farmers, local community non-profits, local planning 
boards, and trails advocates.
    Having established working relationships with many public and 
private not-for-profit entities through the feasibility process, 
planning is underway through stakeholder meetings and partnership 
meetings to refine roles of all participants. The stated focus is for 
Freedom's Way to facilitate linkages and partnerships to strengthen the 
role of participants in educational efforts.
    The legislature of the Commonwealth of Massachusetts appropriated 
the funding for the Feasibility Study. Massachusetts Office of Travel 
and Tourism, with a matching grant from MassDevelopment, helped produce 
the Freedom's Way Map. MassDevelopment also supplied facilities, 
resources and utilities. By state effort, $250,000 in matching state 
funds was appropriated as matching funds for a federal appropriation.
    The management plan will help to identify additional financial 
resources.
    Freedom's Way has developed a list of major corporate entities. The 
association is actively seeking corporate support. Partnerships with 
these companies and many more will be explored in depth: Fleet Bank, 
Citizen's Bank, Fidelity Savings Bank, Middlesex Savings Bank, North 
Middlesex Savings Bank, Cisco Systems. MassDevelopment will offer 
assistance seeking funds.
    Business partners express quality of life issues as a shared 
concern.
    The Study Addendum shows projected budget and other financial 
details.
7. The Proposed Management Entity and Units of Government Supporting 
        the Designation Are Willing To Commit To Working in Partnership 
        To Develop the Heritage Area
    A Minute Man National Park representative attended feasibility 
study meetings.
    The heritage designation will permit further participation of the 
National Park Service and a working relationship with Minute Man 
National Park.
    Mass Development Agency, Mass Department of Environmental 
Management, Wildlife, Regional Planning Commissions, U.S. Fish and 
Wildlife and Massachusetts Office of Travel and Tourism are all 
committed to supporting the designation. Many municipalities have 
joined as members.
    At least three levels of government have offered potential 
headquarters for Freedom's Way. MassDevelopment currently provides 
office space without fee.
    The newly-formed Devens Historical Museum has also offered 
Freedom's Way headquarters space.
    MassDevelopment has made a major contribution in addition to 
providing the office space for Freedom's Way: the donation of office 
furniture and utilities and a matching grant for the map/brochure. 
Nashoba Valley Chamber of Commerce provides office assistance.
8. The Proposal Is Consistent With Economic Activity in the Area
    From the beginning, we have had the full support of 
MassDevelopment, a Commonwealth entity charged with overseeing the 
economic development of the Devens communities, their abutters and 
beyond. All of these communities are in Freedom's Way.
9. A Conceptual Boundary Map Is Supported by the Public
    The Freedoms Way Map, the feasibility study workshops, subsequent 
meetings and stakeholder meetings, technical data and expanding library 
illustrate the public's participation and acknowledgement that this 
area is Freedom's Way.
10. The Management Entity Proposed To Plan and Implement the Project Is 
        Described
    Freedom's Way Heritage Association is described in the legislation 
and in the Feasibility Study. The public has access to material through 
the web site, the office and regular mailings.
    The federal money will be used for this major regional effort by 
helping the communities to find ways to develop their own linkages 
through participation and cooperative partnerships. We will:

          1. Focus on the three main themes in order to teach about and 
        connect the major trails that will be marked.
          2. Improve both the usage and meaning of significant sites 
        within the trails through interpretation;
          3. Develop an educational curriculum based within the 
        community to benefit teachers, children, visitors, and 
        residents;
          4. Bring increased recognition to Minute Man National Park as 
        well as the regional museums through the benefit of a broader 
        based effort;
          5. Connect to the National Park Service nation-wide heritage 
        themes to gain additional linkages and exposure through the 
        stories that relate to the Freedom's Way themes. It is an 
        advantage to connect the telling of the entire story of 
        American Democracy through each region's participation.
          6. Link major federal land protection efforts with historic 
        and cultural themes adding synergy and broader exposure to the 
        efforts of two Department of the Interior services.
          7. Act as a clearinghouse, or regional resource to help 
        communities learn the methods for land preservation and 
        conservation that are available to them through a regional 
        educational program focused on town planning issues relating to 
        sustainability.
          8. Cultivate a working relationship with other educational 
        institutions such as Harvard University and U. Mass.
                               conclusion
    The Department of the Interior's Senate testimony at last year's 
Parks Subcommittee Hearing is that Freedom's Way fully complies with 
all stated criteria. Following designation a cultural resource study 
and a detailed management plan will be developed and submitted to the 
Secretary. The purpose will be to support the work of regional 
educational and planning entities, focusing on a regional approach. 
Long term by products will be livable communities, growth of public 
transportation and sustainable development. Locally determined growth, 
including heritage tourism, will yield significant economic benefits as 
a byproduct of all the collaborative work.

                               <greek-d>

      

</pre></body></html>
